<html>
<title> - WHY FEDERAL INVESTMENTS MATTER: STABILITY FROM CONGRESS TO STATE CAPITALS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                    WHY FEDERAL INVESTMENTS MATTER:

               STABILITY FROM CONGRESS TO STATE CAPITALS

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, D.C., JANUARY 15, 2020

                               __________

                           Serial No. 116-19

                               __________

           Printed for the use of the Committee on the Budget
           
           
           
           
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           
           


                       Available on the Internet:
                            www.govinfo.gov
                            
                            
                            
                            
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
40-597                 WASHINGTON : 2020                             
                            
                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           KEVIN HERN, Oklahoma
JIMMY PANETTA, California            CHIP ROY, Texas
JOSEPH D. MORELLE, New York          DANIEL MEUSER, Pennsylvania
STEVEN HORSFORD, Nevada              DAN CRENSHAW, Texas
ROBERT C. ``BOBBY'' SCOTT, Virginia  TIM BURCHETT, Tennessee
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director
                                CONTENTS

                                                                   Page
Hearing held in Washington D.C., January 15, 2020................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     5
        Letter submitted for the record..........................     8
    Hon. Steve Womack, Ranking Member, Committee on the Budget...    10
        Prepared statement of....................................    12
    Tracy Gordon, Ph.D., Senior Fellow, Urban-Brookings Tax 
      Policy Center..............................................    16
        Prepared statement of....................................    19
    Jeanne Lambrew, Ph.D., Commissioner, Department of Health and 
      Human Services, State of Maine.............................    28
        Prepared statement of....................................    30
    Hon. Mark Poloncarz, County Executive, Erie County, New York.    33
        Prepared statement of....................................    35
    Hon. Larry Walther, Chief Fiscal Officer and Secretary, 
      Department of Finance and Administration, State of Arkansas    38
        Prepared statement of....................................    40
    Kim Murnieks, Director, Office of Budget and Management, 
      State of Ohio..............................................    47
        Prepared statement of....................................    49
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................   104


                    WHY FEDERAL INVESTMENTS MATTER:

               STABILITY FROM CONGRESS TO STATE CAPITALS

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Higgins, Boyle, 
Price, Schakowsky, Kildee, Panetta, Morelle, Horsford, Scott, 
Jackson Lee, Lee, Jayapal, Sires, Peters, Cooper; Womack, 
Woodall, Johnson, Smith, Flores, Norman, Hern, Roy, Meuser, 
Crenshaw, and Burchett.
    Chairman Yarmuth. It is possible that we will have votes 
during the hearing, so I ask unanimous consent that the Chair 
be authorized to declare a recess at any time.
    Without objection, so ordered.
    I want to welcome our witnesses here with us today. This 
morning we will be hearing from Dr. Tracy Gordon, a senior 
fellow with the Urban-Brookings Tax Policy Center; Dr. Jeanne 
Lambrew, the commissioner of the Department of Health and Human 
Services for the state of Maine.
    I am going to yield to the gentleman from New York to 
introduce our third witness.
    Mr. Higgins, you want to introduce the witness?
    Mr. Higgins. Mark Poloncarz is a county executive from Erie 
County, a great, great county executive, a former youth hockey 
coach, an aspiring musician--plays the guitar--and the son of a 
steelworker and a nurse who worked at Mercy Hospital. Mark is a 
native of Lackawanna, New York. He is a source of great pride 
for all of us in western New York. He is a great leader with a 
great vision, and I am pleased to have Mark Poloncarz here 
today with us.
    Chairman Yarmuth. Thanks. I now yield to the Ranking Member 
to introduce another witness.
    Mr. Womack. Well, very briefly, Mr. Chairman, thank you. It 
is a delight to have the chief financial officer for the state 
of Arkansas in our midst today, Secretary Larry Walther of out 
of the Little Rock area.
    Obviously, you know, before the restructuring of state 
government that Governor Hutchinson most recently took care of, 
he was a director of finance and administration. And there you 
will have to help me. Secretary now of? OK, so just added 
secretary to the list, and remarkable talent, and very 
articulate, and I think will speak well to the connections, the 
fiscal connections that we have between state and federal 
funding. And we welcome Secretary Walther.
    Chairman Yarmuth. Thank you. I now yield to the gentleman 
from Ohio, Mr. Johnson, to introduce our final witness.
    Mr. Johnson. Well, thank you, Mr. Chairman, and our Ranking 
Member, my colleague from Arkansas, Mr. Womack, for giving me 
this time, because this is really an honor for me, and a 
pleasure and a privilege to welcome one of our witnesses here 
today, Ms. Kimberly Murnieks.
    She is the director of the Office of Budget and Management 
for the state of Ohio. Director Murnieks has dedicated her life 
to public service. And, as Ohio's budget director, she works 
hard every day to ensure the state government operates 
efficiently and effectively for all Ohioans. That is what we 
should be doing here. She is doing it there, and that includes 
the roughly 721,000 people that I represent.
    It is great to have a Buckeye and a graduate of Marietta 
College, which is right there in my neighborhood. I can throw a 
rock and hit the president's house from my front yard.
    [Laughter.]
    Mr. Johnson. So, yes--well, he is a former Marine, so he 
can dodge the--he is good at it.
    But we are glad to have her here, testifying before the 
House Budget Committee. I look forward, Director Murnieks, to 
hear your testimony and to the testimony of each of our panel 
members, because these issues are really important. I know they 
don't get a lot of media play, but they are really important.
    Thank you, Mr. Chairman. I will yield back.
    Chairman Yarmuth. Absolutely. Thank you.
    And just because it is unusual for us to have five 
witnesses--so we, in this hearing, because we wanted as much 
diversity as we could have when we are talking about state and 
local governments, we decided to add another minority witness, 
and I am glad you all are here.
    With that, I will yield myself five minutes for an opening 
statement.
    Welcome back, everyone. I am looking forward to this new 
year in the House Budget Committee, and I hope you are, as 
well.
    Last year, with the support of both Republican and 
Democratic members of this Committee, Congress put in place 
bipartisan budgets for 2020 and 2021, complete with 
discretionary top lines and committee allocations, including 
accommodations for initiatives that are fully offset.
    The Committee held hearings addressing some of the biggest 
economic issues facing our nation, including the benefits of 
immigration reform, the cost of climate change and aging 
infrastructure, the potential costs of debt, the federal 
government's vital role in mitigating economic downturns, and 
more.
    The federal budget has a direct impact on Americans' 
everyday lives, but it also affects the abilities of state and 
local governments to operate and serve their constituents. 
State and local governments touch the lives of nearly every 
American and, in many cases, they have been on the forefront of 
major policy innovation.
    But the reality is many of these great advancements, like 
Medicaid expansion, infrastructure revitalization, and 
investments in our public schools, would not be possible 
without critical support from the federal government. From 
public parks to private--to public libraries, renewing a 
driver's license, or driving kids to school, every day millions 
of Americans interact with institutions and infrastructure made 
possible with the help of federal investments.
    The impact of federal funding across the country cannot be 
overstated. On average, federal funding makes up nearly one-
third of a state's budget. As a result, federal funding 
decisions, unpredictability, and, of course, national economic 
downturns have a major impact on states and their budgeting, 
and their plans for strategic investments.
    The same is true for local governments. With many state 
legislatures and city councils headed into session to plan for 
the upcoming fiscal year, it is an important time to examine 
the role of federal investments in our communities.
    Most federal grants going to states are for Medicaid, which 
provides insurance coverage to 65 million Americans, and allows 
states to customize their programs to meet the specific needs 
of their population. Under the Affordable Care Act, 37 states, 
including the District of Columbia, have expanded Medicaid, 
helping vulnerable Americans gain affordable and quality health 
care coverage. Now Kansas is on deck to actually become the 
38th.
    In my home state of Kentucky, nearly a half-million people 
obtained health coverage through Medicaid expansion. That is in 
a state of just over 4 million. I wish the people of Kansas 
similar success.
    Federal support also keeps the doors open at many community 
health centers and public health clinics, helping those 
struggling with addiction and others trying to break free from 
violent or abusive situations. Other federal investments that 
Americans rely on every day include programs that help 
Americans meet their basic needs; transportation projects to 
construct highways, transit systems, and airports; and other 
infrastructure investments that can revitalize communities and 
encourage economic growth.
    Meanwhile, education grants such as Title I are making sure 
our schools are equipped to serve our nation's youth. Using 
these investments, local officials can tailor programs to best 
meet the unique needs of their communities.
    These are vital programs. And while it may be easy for some 
of our colleagues or others in the White House to look at a 
dollar amount in a column on a page in the federal budget and 
say, ``Yes, slash it,'' it is important to remember that cuts 
carry serious consequences for states and localities and the 
people we all serve. Most states and local governments operate 
on the thinnest of margins, and would be unable to backfill any 
major loss of federal funding. Their budgets would take a 
massive hit, but it is the people, our constituents, who would 
suffer most.
    During economic downturns, the loss of federal support 
would be especially harmful. In a recession, states face a one-
two punch of declining tax revenues and increasing demand for 
services. Federal investments help states, most of which are 
required to balance their budgets to avoid painful cuts and 
still provide crucial services.
    Between 2008 and 2012 the American Recovery and 
Reinvestment Act and a later extension were responsible for 
closing 24 percent of state budget gaps, as states nationwide 
grappled with the lingering effects of the Great Recession.
    Today the Committee will hear from witnesses who know 
firsthand just how important federal investments are to state 
and local budgets. I look forward to discussing with our 
witnesses and my colleagues ideas that will help keep the 
federal government--be an even better and more reliable partner 
to state and local governments and the Americans they serve.
    [The prepared statement of Chairman Yarmuth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Yarmuth. And before I yield to the Ranking Member 
for his opening statement, I would like to ask unanimous 
consent to submit a letter from the American Federation of 
State, County, and Municipal Employees.
    Without objection, so ordered.
    [The letter submitted by Chairman Yarmuth for the record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. With that I yield five minutes to the 
Ranking Member, the gentleman from Arkansas, Mr. Womack.
    Mr. Womack. I thank the Chairman for holding this hearing, 
and welcome to each of our witnesses here today.
    Late last year we heard firsthand from experts several 
times right here in this room that our economy is historically 
strong by numerous metrics, thanks to pro-growth policies 
enacted under this Administration. A strong American economy 
yields positive results for all of us. From the largest state's 
government to the smallest local authority, everyone feels the 
benefits of a good economy.
    We are experiencing historic economic prosperity. A 
recession is not imminent. Rather, the true threat to state and 
local governments is the dire status of the federal 
government's finances. The federal debt recently eclipsed $23 
trillion, and annual deficits are projected to exceed a 
trillion dollars each year over the next 10 years. We may be 
facing a sovereign debt crisis which will affect every state, 
regardless of size, and negatively impact every American.
    When the federal government does provide support to state 
and local governments, federal overreach often stifles 
flexibility and innovation. Many well-intended federal 
requirements hinder states' efforts to address domestic 
priorities. Such requirements impose unfunded costs, hours of 
additional paperwork, and prescriptive measures that prevent 
state and local governments from tailoring programs to suit the 
needs of their constituents.
    Let me give you an example. In my home state of Arkansas, 
the Department of Energy gave a company called Clean Line 
Energy Partners a waiver to develop the plans in Eastern Clean 
Line--Plains and Eastern Clean Line project after our state 
rejected the proposal. For years, the Arkansas delegation 
fought for our state's right to prior approval before an agency 
exercises eminent domain. This was a high wire line that 
Arkansas did not need and did not benefit from enough to 
justify the amount of land and resources taken from Arkansans.
    Thankfully, after multiple meetings and letters from the 
Arkansas delegation, and under a new Presidential 
administration, the Department of Energy terminated its 
contract with Clean Line. This action effectively stripped 
their waiver to circumvent local and state approval, placing 
the authority where it belongs, with Arkansans.
    Republican lawmakers have offered many proposals to promote 
state flexibility in key domestic spending priorities, such as 
implementing a Medicaid per capita allotment, or an optional 
block grant, and dialing back burdensome infrastructure 
regulations imposed by the National Environmental Policy Act of 
1969.
    The point is that state and local governments, along with 
private-sector innovation, are best equipped to address 
domestic needs. The federal government should focus on finding 
more opportunities to stay out of its way.
    The size and scope of the federal government have vastly 
increased throughout our country's history. The power dynamic 
between the federal government and state and local governments 
has become greatly skewed, overly dominated by federal control, 
and far out of line from what the founding fathers envisioned.
    Today's hearing presents an opportunity for us to have a 
serious conversation about the need to restore the principles 
of federalism in the budget process. It is in the best interest 
of all to promote policies that reduce the federal imprint on 
state and local governments and encourage these institutions to 
address an increasing number of our nation's domestic policy 
concerns. One-size-fits-all policies from bureaucrats sitting 
here in Washington do little to solve problems or address the 
needs in Arkansas's Third congressional District or any other 
location far outside the Beltway.
    Today's hearing also provides us yet another opportunity to 
discuss the fact that the current congressional budget process 
isn't working. Congress has frequently relied on continuing 
resolutions to fund the federal government. The dysfunction and 
uncertainty in the federal budget process not only negatively 
impacts state and local governments, but it also causes 
significant damage to our national defense efforts.
    The way we are doing business today is irresponsible. While 
under Republican control, this Committee reported a budget 
resolution every year. On the other hand, the Democrat majority 
failed to do a budget resolution last year and will not be 
doing a budget resolution this year. In order to truly 
capitalize on this historic moment of economic prosperity for 
the benefit of state and local governments and all Americans, 
we must finally come together to put our nation's finances on a 
sustainable path.
    As a former mayor, I look forward to hearing from the 
hardworking and dedicated state officials here with us today.
    [The prepared statement of Steve Womack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Womack. Thank you, Mr. Chairman, and I yield back the 
balance of my time.
    Chairman Yarmuth. I thank the Ranking Member for his 
opening statement.
    If any other Member has an opening statement, you may 
submit those statements in writing for the record.
    Once again, I want to thank all of our witnesses for being 
here this morning. The Committee has received your written 
statements, and they will be made part of the formal hearing 
record. Each of you will have five minutes to give your oral 
remarks.
    Dr. Gordon, you may begin when you are ready. You are 
recognized for five minutes.

    STATEMENT OF TRACY GORDON, PH.D., SENIOR FELLOW, URBAN-
      BROOKINGS TAX POLICY CENTER; JEANNE LAMBREW, PH.D., 
COMMISSIONER, DEPARTMENT OF HEALTH AND HUMAN SERVICES, STATE OF 
MAINE; THE HON. MARK POLONCARZ, COUNTY EXECUTIVE, ERIE COUNTY, 
  NEW YORK; THE HON. LARRY WALTHER, CHIEF FISCAL OFFICER AND 
 SECRETARY, DEPARTMENT OF FINANCE AND ADMINISTRATION, STATE OF 
  ARKANSAS; AND KIM MURNIEKS, DIRECTOR, OFFICE OF BUDGET AND 
                   MANAGEMENT, STATE OF OHIO

                STATEMENT OF TRACY GORDON, PH.D.

    Dr. Gordon. Thank you. Chairman Womack, Ranking Member--
excuse me, Chairman Yarmuth, Ranking Member Womack, and Members 
of the Committee, thank you for having me here today to talk 
about the importance of the federal budget to state and local 
governments. The views I express today are my own, and should 
not be attributed to the Tax Policy Center, the Urban 
Institute, the Brookings Institution, their boards, or their 
funders.
    In this short testimony I would like to make three main 
points: first, state and local governments are key economic 
players and service providers; second, both of these roles are 
severely tested in recessions and other economic shocks; third, 
the federal government often steps in to help state and local 
governments, but it could do more.
    On the first point, state and local governments spend $3 
trillion a year. They employ one out of every seven workers, 
more than any other industry, including manufacturing, retail, 
health care, and the federal government by a factor of seven to 
one. Since World War II they have contributed an average of .3 
percentage points to real annual GDP growth. States and 
localities fund more than 90 percent of and deliver nearly all 
public K to 12 education. They undertake nearly 80 percent of 
all government spending on roads, bridges, water, and other 
infrastructure, not including their spending from federal 
funds. Together with the federal government, states administer 
the social safety net, including programs like Medicaid, 
unemployment insurance, and Temporary Assistance to Needy 
Families.
    States and localities are often hard hit in recessions. 
states, in particular, tend to rely on pro-cyclical revenues, 
ones that rise and fall with the economy. But state spending is 
counter-cyclical, meaning that it generally rises in a downturn 
because of greater demands for public programs, especially 
those targeted to the low-income and unemployed. This mismatch 
creates problems for state and local elected officials, who 
must generally balance their budgets each year. It also poses 
problems for the larger economy, because tax increases and 
spending cuts undertaken to close projected budget gaps can 
undermine a national economic recovery.
    Policy makers have long recognized these potential harms 
from state and local budget tightening. In the 1970's they 
experimented with various forms of counter-cyclical assistance. 
However, aid was often poorly targeted, slow to arrive, and not 
spent quickly. In the early 2000's Congress appropriated $10 
billion in one-time population-based grants to states, plus $10 
billion in Medicaid funds through a temporary increase in the 
federal matching rate.
    The American Recovery and Reinvestment Act was the next 
major experiment with counter-cyclical fiscal assistance, 
directing nearly $290 billion to the nation's state and local 
governments. The Recovery Act worked faster than the 2003 bill, 
and many would argue it was more effective. Aid started to flow 
almost immediately, and it was retroactive. In addition, the 
Recovery Act was better targeted to places that were affected 
in the downturn.
    The federal government should do more to help prepare for 
regional economic shocks, and help places that are left behind 
in the current recovery. The federal government allocates 
roughly $700 billion a year, or about 3.5 percent of GDP, in 
grants to states and localities each year. The federal 
government also helps states and localities through the tax 
code, allowing federal taxpayers to deduct state and local 
taxes, and generally excluding municipal bond interest payments 
from individual taxable income.
    Federal money isn't a bailout, it is a quid pro quo. The 
federal government recognizes that states and localities have 
certain advantages when it comes to customizing programs to 
their populations, geographies, and costs. It wants to 
encourage them to spend more on valued goods and services whose 
benefits may extend across jurisdictional lines, or that are 
important to all Americans. That is why the federal government 
has long distributed grants to state and local governments, 
almost always with strings attached.
    However, the U.S. intergovernmental grant system falls 
short in two key respects.
    First, federal grants do a poor job responding to divergent 
regional fortunes. Federal policymakers should re-examine 
funding formulas that may be out of step with current social 
and economic conditions. Examples include Medicaid, Title 1 
education grants, highway grants, and community development 
block grants.
    Second, federal grants often are not as responsive as they 
could be to economic shocks or recessions. To address this 
problem, policymakers ought to consider making permanent and 
automatic a feature of the Recovery Act that allocates more 
places to--more money to places experiencing drops in 
unemployment.
    At a minimum, the federal government could help states and 
localities by reducing uncertainty associated with late 
appropriations, short continuing resolutions, and threatened 
shutdowns. It could also minimize the use of expiring tax 
provisions.
    In summary, the U.S. federal, state, and local partnership 
did not come easily. It evolved over a 200 years that included 
defaults, bailouts, a civil war, the introduction of new 
revenue sources, and major social insurance programs, and lots 
of trial and error. It is an enduring and robust partnership, 
but it is a work in progress. There are several ways in which 
the federalist system could be made stronger, especially in a 
crisis.
    Thank you. I look forward to your questions.
    [The prepared statement of Tracy Gordon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Yarmuth. Thank you for your testimony.
    I now yield five minutes to Dr. Lambrew.

               STATEMENT OF JEANNE LAMBREW, PH.D.

    Dr. Lambrew. Great. Thank you, Chairman Yarmuth, Ranking 
Member Womack, and Members of the Committee. It is an honor to 
be invited to discuss how federal investments affect the state 
of Maine.
    We enter Maine's bicentennial year celebrating our 
strengths. This includes a good economy: Maine's unemployment 
rate has been below 4 percent 47 consecutive months. And 
Governor Mills's first budget responsibly invested in health 
care, education, economic development, clean energy, and a 
rainy day fund.
    But Maine faces economic challenges, as well. These include 
fewer workers and slow GDP growth. We are hard at work on 
actions to implement a recently released, strategic, statewide 
economic development plan. But we cannot do it alone. Federal 
grants represent 34 percent of the Maine State budget, above 
the national average. In the biennial budget, federal funds 
represented 58 percent of the Maine Department of Health and 
Human Services' $9.6 billion budget.
    As you are aware, Congress has not recently significantly 
changed federal funding for discretionary health and human 
services programs, except for opioid response. We are grateful 
for that funding, but urge it to be allocated based on up-to-
date information on this rapidly changing crisis.
    We also receive federal funding for entitlement programs. 
The majority of federal funding to DHHS is for Medicaid, called 
MaineCare. Governor Mills's first executive order was to direct 
its expansion. The MaineCare expansion has cumulatively covered 
57,000 people, providing over 16,000 mental health treatments. 
The program is essential to our fiscal, as well as our public, 
health.
    Because of this, I would like to focus on the triple threat 
to federal funding for Medicaid.
    The first threat is congressional proposals to cap or block 
grant Medicaid. Last year's president's budget would shift from 
the federal government paying a percent of cost to a pre-set 
dollar limit. This would leave states largely, if not fully, at 
financial risks of high costs due to unexpected events such as 
recessions or natural disasters. Maine will be particularly 
vulnerable to unaffordable cost shifts, given its high 
percentage of older and low-income residents. Additionally, it 
is not clear whether the proposal would include the costs of 
recent expansions.
    The second threat is through executive actions that limit 
federal funding by constraining state options. This fall the 
Centers for Medicare and Medicaid Services, or CMS, proposed a 
Medicaid financial accountability regulation called MFAR. It 
would change longstanding policies on taxes, intergovernmental 
transfers, and other sources of state financing. CMS has told 
me that one type of tax implicated by this proposal, a $58 
million service tax on providers, would have to be repealed, 
replaced, and returned to providers who paid it back to 2016. 
Even in a good economy, there will be a challenge. This may be 
why, unlike most rules, CMS did not quantify MFAR's impact on 
states.
    Perhaps most importantly, CMS proposes to give itself the 
power to make subjective determinations on what does and does 
not constitute permissible sources of state financing. In so 
doing, the proposal--proposed rule shifts the balance of powers 
decisively away from states.
    The third threat is through the courts. Republican-led 
states, backed by the Trump Administration, seek to strike down 
the Affordable Care Act in the case of Texas versus the U.S. 
Should the plaintiffs prevail, the uninsured rate in Maine 
would increase by an estimated 65 percent. Maine would lose an 
estimated $495 million each year in federal Medicaid and 
marketplace funding. Uncompensated costs--care costs would 
rise, straining our hospitals.
    Governor Mills signed into law LD 1, which codifies the 
Affordable Care Act consumer protections. It would protect up 
to 230,000 people in Maine who have pre-existing conditions 
under a narrow ruling in the case. But under a broad ruling, 
another 360,000 people will be at risk of denial. This level of 
damage cannot be reversed by states.
    Opportunities to strengthen federal-state partnerships are 
also under discussion. Last fall you heard testimony on 
creating federal funding formulas that would help states 
deliver services effectively and efficiently. For example, 
setting the federal matching rate for Medicaid to automatically 
increase with the state's unemployment rate would sustain local 
economies during downturns. And the House-passed bill this--
last year will provide $200 million for state-based 
marketplaces, like the one that Kentucky ran that was 
incredibly successful--until recently.
    Governor Mills and legislative leaders recently introduced 
legislation for that purpose. This would strengthen state 
resiliency.
    In closing, federal-state partnerships are essential to how 
we provide services in Maine and nationwide. But it indeed 
needs to remain that--mutual and accountable--rather than an 
imbalanced and uncertain relationship.
    Thank you.
    [The prepared statement of Jeanne Lambrew follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Mr. Poloncarz for five minutes.

                  STATEMENT OF MARK POLONCARZ

    Mr. Poloncarz. Thank you. Good morning, Chairman Yarmuth, 
Ranking Member Womack, and to all the Members of the Committee.
    I am glad to be here this morning to share my unique 
perspective as county executive on the vital role federal 
investments play in stabilizing America's local communities, 
especially during difficult economic times.
    First, I would like to share a little background on the 
community I represent. Erie County is a microcosm of our--
America. It has an urban core in Buffalo, many suburbs, and 
hundreds of square miles of family farms and rural communities. 
There is 920,000 people that live in my county, making it 
larger than five states, and it is approximately the same size, 
geographically, as the state of Rhode Island.
    Like other Great Lake areas, Erie County struggled at the 
end of the 20th century, with the loss of population and jobs. 
However, in recent years we have seen our population increase, 
and an economic resurgence as we have transitioned from a blue 
collar economy to one based on financial services, health 
sciences, education, and advanced manufacturing.
    As executive, I manage an annual budget of $1.8 billion, 
dozens of departments, and a work force of 5,000 employees. 
Despite having such a large budget, only $125 million is truly 
discretionary in nature. The vast majority of county spending 
is for programs mandated by federal and state government, but 
administered at the county level.
    For example, Erie County is the primary provider of health 
and human services for the region. Programs like Medicaid, 
TANF, SNAP, WIC, Meals on Wheels, and so many other programs 
are delivered by the county. As part of the delivery of those 
services, the county often has a substantial local share. Erie 
County's share of Medicaid in 2020 alone is more than $200 
million.
    Our departments of health and human--and mental health have 
led the effort in combating the opiate epidemic, with 
substantial grant assistance provided by various federal 
agencies. I am proud to say the Justice Department's Bureau of 
Justice Assistance considers Erie County to be the model county 
on how to respond to the opioid crisis.
    However, we would not be in that position--meaning more 
people would have died--without the significant financial 
assistance received from the federal government. Any reductions 
in federal funding in the above-discussed programs would have 
an immediate and significantly negative impact on our ability 
to deliver services promoting our residents' health and 
wellness.
    We have closely reviewed and monitored every budget 
proposed by the Trump Administration, determining that many of 
the President's proposals would have a disastrous impact 
locally.
    For example, New York, already facing a multi-billion-
dollar Medicaid shortfall, would be severely punished under the 
block grant system previously proposed by the President. If 
implemented, we would be forced to significantly raise taxes to 
make up for the lost assistance, or cut other popular programs 
like libraries and parks.
    Furthermore, the county administers the Department of 
Housing and Urban Development's Community Development Block 
Grant Program for 34 municipalities, including our entire rural 
area. These grants, which require a local match, support 
everything from mainstream improvements to clean water 
projects. These grants are a vital lifeline to help our smaller 
communities address specific needs, just as they helped the 
city of Buffalo build affordable, safe housing. Should the CDBG 
program be eliminated as the Trump Administration has 
repeatedly proposed, all areas of our county--urban, suburban, 
and rural--would be negatively impacted.
    Another key area that has been impacted from a lack of 
federal assistance is our infrastructure. Erie County owns and 
maintains more than 2,400 lane miles of roads. That is more 
than the states of Delaware, Hawaii, and Rhode Island each 
have. Federal dollars used to play an important role in 
completing many projects a year. Unfortunately, with no major 
federal infrastructure bill in recent years, we have been only 
able to complete a few large projects with the limited federal 
assistance we received.
    That is why I strongly support legislation introduced by 
Congressman Higgins. It would provide a major investment in our 
roads, bridges, and other infrastructure, support good-paying, 
middle wage--or middle America jobs, and will be desperately 
needed during any future recessions.
    Finally, let me give you an example of how the failure to 
pass the federal budget on time can have a significant impact 
on our local economy. Our Buffalo and Erie County Workforce 
Investment Board is a local organization supported by federal 
aid appropriated through the Workforce Innovation and 
Opportunity Act, WIOA. The employees of the board work with 
local employers and job seekers to sustain and grow our 
economy.
    However, when the federal government shuts down, those 
employees are furloughed as well, because their salaries are 
paid for by federal WIOA dollars. The last thing any region 
could afford in a recession is furloughing the people whose job 
it is to help other people find jobs and employers fill jobs. 
This is just one small but important example of how targeted 
federal assistance helps--grows local economies, and how 
reducing aid or the shutdown of the federal government during 
economic downturn would negatively impact a region.
    Erie County's economy is growing, but I can't imagine what 
our fiscal picture would be if some of the President's prior 
budget proposals had been enacted, nevertheless during a 
recession.
    I thank Congress for bipartisanly rejecting the proposed 
cuts in the past. And if they are included in the 2021 budget, 
I would urge you to reject them again.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mark Poloncarz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Yarmuth. Thank you for your testimony.
    I now yield five minutes to Secretary Walther for his 
testimony.

                   STATEMENT OF LARRY WALTHER

    Mr. Walther. Chairman Yarmuth, Members of the Committee, 
thank you for the opportunity to speak to you today. Thank you 
to Ranking Member Womack for the invitation.
    I would like to share with you a brief overview of the 
budgeting and planning process in Arkansas. To do this we must 
go back to the late 1920's and early 1930's.
    Arkansas was experiencing the great flood of 1927, a 
significant road debt that was transferred to the state from 
the counties, and the overall Great Depression. As a result, 
Arkansas was struggling to maintain state services, and 
defaulted on its debt.
    A variety of new taxes were implemented around this time to 
address the state's budget needs. However, this didn't solve 
the issue, and the state needed a long-term solution. This was 
established through amendment 20 to the Arkansas Constitution. 
In simple terms, we are constitutionally barred from borrowing 
money without a vote of the citizens.
    Arkansas maintains a true balanced budget approach to 
funding state programs. We do not commit state dollars until we 
have those dollars in hand and available to spend. Under 
Arkansas law it is my duty to see that the funds on hand and 
estimated to be available to each state agency are sufficient 
to maintain state services on a sound, fiscal basis, without 
incurring a deficit.
    Our annual budgeting process doesn't just allocate dollars 
to state programs, it prioritizes the spending. Through this 
process, agencies make tough decisions, but also have a clear 
understanding of what will take place in all the budget 
scenarios.
    Another consequence of barring--of being barred from taking 
on debt is our need to build fund balances in support of the 
most important programs. In order to safeguard state programs 
in the case of a recession and to allow us to remain 
competitive when opportunities arise, Arkansas has recently 
invested a series of reserve funds. Under Governor Asa 
Hutchinson we maintain three such funds: a restricted reserve 
fund, a long-term reserve fund, and a rainy day fund. Each of 
these play a unique role.
    Since Governor Hutchinson took office in January 2015, 
three of the largest individual tax cuts in the state's history 
have been implemented. This includes a middle-income tax cut in 
2015, a cut for low-income Arkansans in 2017, and an upper-
income tax cut that became effective January of this year. 
These historic cuts reduced income taxes for each state tax-
paying Arkansan. However, all of these tax cuts were absorbed 
without any change or reduction in the state services, due to 
responsible budgeting and an economy that continues to expand.
    Federal funds remain a significant component of the day-to-
day operation of the state services. In Fiscal Year 2019, which 
ended in June 2019, federal dollars accounted for 29 percent of 
our expenditures. The largest portion, approximately $6 
billion, supports our Department of Human services, which 
administrates--administers the state's Medicaid program.
    We must also acknowledge federal funds' crucial role in 
addressing natural disasters and emergency. In 2019 Governor 
Hutchinson and President Trump declared an emergency in the 
state due to immense flooding on the Arkansas River. While 
Arkansas maintains both a balanced budget and several reserve 
funds that can significantly help with--in these scenarios, a 
disaster of this scale requires immediate support from the 
federal funds. Due to President Trump's declaration and the 
work of FEMA, federal funds were made available at the time, 
and remain available today for those recovering from the damage 
caused by the event.
    I believe that the state-federal partnership is at its best 
in these times of need. From Washington, DC. to those in 
Arkansas impacted by these events, it simply becomes people 
helping people.
    We are grateful for the decision that was made that allowed 
for this to--partnership.
    Before taking--before making any request at the federal 
level, it is up to the state to determine specifically what we 
hope to accomplish, and the amount needed to responsibly 
address these needs. Understanding the importance of making 
this type of ask of the federal government and the state, we 
always carefully consider the need that go along with our--plus 
our resources before we bring them to you.
    Again, thank you for the honor of speaking to you today, 
and I look forward to any questions.
    [The prepared statement of Larry Walther follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Yarmuth. Thank you very much, Secretary. I 
appreciate your testimony.
    And, last but not least, I yield five minutes to Director 
Murnieks.

                   STATEMENT OF KIM MURNIEKS

    Ms. Murnieks. Thank you, Chairman Yarmuth, Ranking Member 
Womack, and Members of the Budget Committee. I am honored to be 
with you here today.
    As Ohio's Budget Director I serve as a Chief Financial 
Officer for our state under the leadership of Governor Mike 
DeWine.
    Federal funding supports Ohio citizens in crucial areas, 
and Ohio's biennial state budget supports these initiatives, as 
well. To understand our budget picture it is important to first 
discuss our economic outlook.
    Ohio's economy is strong and likely to continue expanding 
in 2020. Ohio's non-farm payroll employment has increased by 
6,700 jobs, just in November. Our unemployment rate is down. 
Our labor participation rate is up. Ohio manages $28 billion in 
federal grant funds each year, which is roughly 40 percent of 
our budget. Federal grants in Ohio are administered by 36 
different state agencies, aligned with federal agencies, 
utilizing 58 different systems and tools, with approximately 
800 state employees dedicated to grants administration and 
compliance.
    As Governor DeWine has said, our focus is on people, not 
bureaucracy. We need regulatory flexibility to address the 
individual needs of our citizens instead of continuing to focus 
hundreds of employees on simply meeting burdensome federal 
strings.
    In the 1-year and 1 day since becoming Ohio's Budget 
Director, I have been traveling throughout the state to visit 
with local officials. I have learned that our local governments 
find it difficult to navigate the grants administration 
process. And I am concerned that the communities with the most 
needs do not have the resources to apply for grants. So Ohio is 
taking steps to break down these silos by creating a grants 
department within the budget office to coordinate across 
agencies.
    Today I would like to share with you one example of where 
Ohio has cut through bureaucracy to directly improve the lives 
of our citizens using state and federal funding together: our 
focus on multi-system youth, the children who are involved in 
two or more child-serving systems.
    As Governor DeWine has stated, too many families lack 
access to the care that their children need to be happy and 
healthy. For some families, this results in parents making the 
unfathomable choice to relinquish custody of their child to 
help them get the care that they need. As a result of Governor 
DeWine's leadership, four executive-branch departments, three 
county-level associations, and many nonprofit organizations are 
now working together to coordinate care.
    Ohio has dedicated $31 million in new state funding, which 
is being used to support individual children with extremely 
complex needs who are eligible for federal Medicaid and Title 
IV-E funding. When combined in a coordinated fashion, these 
layers of funds can produce better outcomes for our children 
and families. Investing in our children is investing in our 
future, and we welcome even more federal flexibility to allow 
us to do even more.
    In Ohio we are leading by example, eliminating burdensome 
and unnecessary regulations through initiatives like our Common 
Sense Initiative, which reviews business-impacting roles, and 
the one-in/two-out rule, which requires business--which 
requires the repeal of two regulations at the state level each 
time we adopt a new regulation.
    One of Governor DeWine and Lieutenant Governor Husted's 
main priorities is building a better Ohio through job training 
and work force innovations. Ohio has more than 75 job-training 
programs across 12 state agencies. Many align with various 
federal agencies and regulations.
    In the past, the biggest impediment for businesses seeking 
to locate or expand in Ohio was our tax structure. We have 
addressed that. Ohio's business climate has now reached the top 
three in site selection magazine state rankings, making us the 
top state in the Midwest.
    Today our employers' biggest challenge is hiring qualified, 
skilled workers for high-paying jobs. Ohio currently has over 
65,000 open jobs that pay more than $50,000 per year. So now is 
the time for us to work together to streamline work force 
development programs to ensure that our states can compete and 
win in the global economy.
    Many of the examples that I talked about today and that are 
in my written testimony required Ohio to obtain waivers from 
federal rules. Each waiver requires extensive paperwork and 
precious time, time that could be better spent in direct 
service of the needs of our citizens. Flexibility should be the 
rule, and not the exception. We ask that you continue your 
efforts toward reducing the burdens so that we can maximize 
taxpayer dollars together.
    Mr. Chairman, Members of the Committee, thank you for 
holding this important hearing today, and for allowing me the 
honor to be with you for this discussion. I am happy to answer 
any questions that you have.
    [The prepared statement of Kim Murnieks follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Yarmuth. Thank you very much for your testimony, 
and thanks again to all the witnesses. We will now start our 
question-and-answer period. And, as is customary, the Ranking 
Member and I will defer our questions until the end.
    So I now yield five minutes to the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. County Executive 
Poloncarz, in your introductory information you said that the 
Erie County budget is $1.8 billion, annually, 87 percent of 
which is unreimbursed, New York state-mandated spending.
    New York is one of only a handful of states that require 
counties to provide a local match, which eats up a significant 
portion of your revenue base. Despite this, you have become a 
national leader on efforts to combat opioid addiction and its 
associated deaths.
    While this is a continuing battle, a continuing struggle, 
what is it that Erie County has done under your leadership to 
achieve results that make Erie County and their efforts to 
combat opioid addiction an outlier?
    Mr. Poloncarz. Well, thank you, Congressman Higgins, for 
those kind remarks.
    When we started realizing we had a significant crisis at 
the end of 2015, I brought together my health commissioner, 
mental health commissioner, to co-chair a task force, like many 
other communities have done with task forces. But I told them 
to try everything and anything.
    I looked at dealing with the opioid epidemic because it was 
so widespread. It was affecting individuals in the city of 
Buffalo, just as much as it was affecting individuals in the 
town of Concord and Sardinia, which are your rural communities, 
or some of our rural communities. And I tried--in the back of 
my mind I thought of what FDR did when he entered the Great 
Depression, which is try something, try everything, try 
anything. If it doesn't work, move it to the side, try again.
    So I have had the pleasure to work with also partners from 
across the country through the National Association of Counties 
to basically share information.
    This is not a partisan issue. And we have come together as 
Democrats and Republicans to address the opioid epidemic. And 
what we found out is there is no one answer. It is about 
education. It is about medication-assisted treatment, and 
ensuring you have more treatment availability. It is about 
changing prescriber guidelines. It is about getting people when 
they are young, because, unfortunately, a number of the 
individuals who are dying are teenagers, and they became 
addicted at very young ages, which you would hope never 
happens, but does.
    But it literally was we have to try everything. If it 
doesn't work, toss it aside, try something else. But by all 
means, as FDR said, try something. And, as a result, we have 
had significant success.
    But we would not have had that success without the 
assistance from the federal government of grants that we have 
received from the Department of Justice, Department of Health 
and Human Services, because they gave us the opportunity to try 
some of those things that I would not have otherwise. I would 
not have had the local dollars to do it, if I had not received 
the grant opportunities from the federal government to do an 
opioid court.
    Everyone hears of drug court, but we are doing a 
specialized opioid court in the city of Buffalo, in which the 
judge or the judge's staff meets with the individual on a daily 
basis, compared to most drug courts, where they may meet with 
them on a monthly basis. We would have not been able to do that 
without the assistance we received from the Department of 
Justice's Bureau of Justice Assistance. And I thank you for 
helping procure that grant, which has shown tremendous success, 
especially when you compare it to traditional drug courts, 
where the individual may meet with the judge or the judge's 
assistance monthly. It has had a tremendous success.
    Every death is one death too many. And I have had to attend 
too many funerals during my tenure as county executive, or 
wakes for individuals who died, including people that I know. 
But what we have done is we have said we are going to continue 
to fight this until there is no longer an epidemic.
    We have rolled up our sleeves. We work with our partners. 
It really doesn't matter what your political party is. All that 
matters is, are you willing to help? And if you are, can you 
make a difference? And that is why our community has come 
together to address it. And I am proud to say that our 
overdoses are down, our deaths are substantially down. There is 
more people in treatment, and less people are becoming addicted 
in the first place. And that is how you are going to end this 
crisis in the long run, by ensuring that less people are 
addicted in the first place. And a lot of the assistance we 
receive from the federal government has made the difference.
    Mr. Higgins. Just a final thought on the issue of federal 
investments and how they impact local communities.
    The recent tax cut plan primarily to corporations--for 
every dollar that you give away in a tax cut, most economists, 
even the most conservative, say that you can hope to retain or 
get back about $.32. So the loss on investment is 68 percent.
    But if you look at federal programs like the Great Lakes 
Restoration Initiative, showing that for every dollar you spend 
you get $4 in economic growth at the local level, the Community 
Development Block Grant Program, the infrastructure spending, 
historic tax credits, which have played a primary role in the 
revitalization of Buffalo and Erie County, those are good, 
solid investments into the growth of the American economy, and 
they help county executives like Mark Poloncarz, because there 
are more sales tax revenues when you have growth, there are 
better property tax revenues, as well.
    Chairman Yarmuth. The gentleman's time has expired. Before 
I yield to the gentleman from Ohio, as a reminder, Members can 
submit written questions to be answered later in writing. Those 
questions and the witnesses' answers will be made part of the 
formal hearing record. Any Members who wish to submit questions 
for the record may do so within seven days.
    As we usually do--never mind, that is all. I now yield five 
minutes to the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. You know, the purpose 
of today's hearing is to discuss why federal investments 
matter. And, as the representative of rural eastern and 
southeastern Ohio, I can tell you I understand the importance 
of providing stability and certainty to our state and local 
governments.
    But I am deeply concerned by the premise that stability 
requires significant increases in federal spending or federal 
funding. If Congress wants to provide stability and certainty, 
we can start in this very Committee by enacting legislation to 
reform the congressional budget process. In fact, I believe 
Congress should embrace biennial budgeting, and prepare a 
budget every two years, rather than every year.
    Director Murnieks, I know biennial budgeting has a long 
history at the state level, and Ohio currently operates with a 
two-year cycle. Based on your experience, do you believe that 
biennial budgeting would allow for better long-term planning at 
the federal, state, and local levels?
    Ms. Murnieks. Thank you, Congressman Johnson. I do believe 
that federal budgeting would benefit by a more planful process. 
Biennial budgeting does provide that opportunity. It requires 
the government to look in advance to forecast revenues and 
expenditures over a longer period of time, which, by--you know, 
just by definition, is more planful.
    It would also allow states to have more certainty in what 
the future funding for individual programs and priorities would 
be. So, yes, absolutely, I think that would be beneficial.
    Mr. Johnson. OK, thanks. You know, there is no question 
that the economy is strong. And you talked about how Ohio's 
economy is strong. And I certainly agree with that. The economy 
in my district is very strong. Last month marked the 126th 
consecutive month of economic growth, and the national 
unemployment rate is at a 50-year low.
    We are also seeing the effects of a strong economy in our 
state, across the state, where we have had historic 
unemployment rates and--or historically low unemployment rates. 
In fact, over the last 12 months Ohio has added 20,600 jobs, 
and 96,831 Ohioans found jobs, according to the U.S. Congress 
Joint Economic Committee.
    So, Director Murnieks, in your testimony you mentioned that 
the biggest challenge for employers today is hiring qualified, 
skilled workers for high-paying jobs. Can you get a little bit 
more specific about what Ohio is doing to grow the work force 
and continue the strong economy, given that we have low 
unemployment rates and thousands of openings, jobs across the 
state?
    Ms. Murnieks. Yes, Congressman Johnson. We are focused on 
preparing our work force for the jobs of the future. We are 
looking at a program that was just signed into law by Governor 
DeWine a couple of days ago as the TechCred program. And at the 
state level that is focusing our resources and providing 
employers with the opportunity to upskill their work force, to 
improve their skills, to gain credentials for the jobs that 
we--that are in high demand in Ohio.
    And I mentioned in my testimony that the Federal Workforce 
Development Programs are spread across several different 
departments, and we are looking at how we can bring those 
together through our Office of Workforce Innovation. We are 
focused on the future, but more flexibility would help us to 
get there.
    Mr. Johnson. Good, good. You know, I--one of the things 
that I love about our state, we have built, over time, a--great 
working relationship with our labor groups across the board. 
And they have been proactive in working with us on work force 
development.
    In my district there is a growing demand for highly trained 
and skilled workers, for example, in the construction trades. 
And many unions and employers rely on apprenticeship programs 
to meet this demand. Very briefly, in the last half-a-minute 
that we have got, what is Ohio doing to promote these 
apprenticeship programs?
    Ms. Murnieks. We are working with employers to promote 
apprenticeship programs, job training programs. We have 
initiatives that were funded through our state budget to focus 
both state and federal resources on apprenticeship programs. 
And we are focused on areas like your district.
    And I am from southeast Ohio, as we talked about earlier, 
and it is important that we improve the skill set of the 
workers in our area so that they can be ready for those jobs. 
We have opened jobs in Ohio; we need the workers to fill those.
    Mr. Johnson. OK. Thank you, Mr. Chairman. I yield back. 
Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Pennsylvania, Mr. Boyle, for five 
minutes.
    I am sorry, Mr. Boyle is gone. Now I will recognize the 
gentleman from North Carolina, Mr. Price, for five minutes.
    Mr. Price. Thank you, Mr. Chairman, and thank you for 
organizing this important hearing on the impact of federal 
dollars on our states and localities.
    I am chairman of the Appropriations Subcommittee on 
Transportation HUD. So I am, naturally, acutely aware of the 
shortfalls in housing funding across virtually all HUD accounts 
and the shortfalls in our communities, in terms of people who 
need and would benefit greatly from some support for their 
housing, and they don't have it. It is simply not there.
    So we have a couple of ways of dealing with this. The 
direct funding is what our subcommittee deals with. But I want 
to ask you today--and I will start with you, Dr. Gordon, and 
ask others to chime in who have experience in this area.
    Today I want to focus on the tax code. The direct funding 
is important, and we have block grants, of course, like CDBG 
and HOME. They are often used as gap financing. They are 
combined with other funding sources. We know how important 
those are, and we have been able to increase them incrementally 
in recent years. We know we need to keep on that path.
    But the tax credits are less known, but maybe, in some 
circumstances, even more important. I think particularly of 
addressing gentrification, the kind of efforts we make in our 
cities to identify tracts of land to encourage development, to 
bring in the private sector. My experience has been that these 
tax credits, especially the 9 percent tax credits, are 
extremely important. But these cities are lucky if they get one 
of those per year.
    And so, the supply of tax credits, especially the 9 percent 
credits, the distribution of tax credits--as you see how this 
works across the country, I would appreciate your commenting on 
the importance of this incentive to housing development, 
affordable housing development, and also any comments you have 
about not just the quantity, the availability of these credits, 
but also how they are distributed and how they work.
    Dr. Gordon. Thank you, Congressman. I think, as an 
economist, the issue with any kind of subsidy for state and 
local governments to undertake activities that are valued by 
the federal government is what should the rate of the subsidy 
be.
    So you mentioned the 9 percent credits. I think the issue 
that economists would point out is that there are often other 
types of credits at other subsidy rates, and the same thing is 
true with grant programs. And, for that matter, things like the 
home mortgage interest deduction, which are intended to spur 
housing consumption, there is no reason to think that the 
marginal tax rate of a high-income taxpayer is necessarily the 
right subsidy rate.
    So I think the concern that I would have is, just looking 
across the board at all of these programs, and trying to 
determine whether you are encouraging the activity in a way 
that you want to encourage it, and whether it is the 
appropriate subsidy.
    Mr. Price. But isn't--what is your experience with 9 
percent versus 4 percent? Of course, 4 percent sounds 
attractive, as well. But the--what I keep hearing is that there 
is a big difference, and that the--to really spur the kind of 
diversity of housing development that we need, that there is 
just no substituting for the 9 percent credits, and that they 
are very scarce.
    Dr. Gordon. Right. So clearly, you know, having a richer 
subsidy would encourage more activity.
    I think the question is always about tradeoffs, and at what 
cost. I would refer you to some of the work that my colleagues 
at the Urban Institute have done, specifically on low-income 
housing tax credits and, you know, thinking across the board 
about the mix of different kinds of tax credits, and also tax 
incentives versus direct grants, as you said.
    Mr. Price. Well, I would appreciate, if there is 
particularly anything that would be relevant to the hearing 
record on this, to refer us to this.
    I am reflecting, of course, my own local experience, and I 
guess I am registering the view that direct funding is not the 
total solution here. Never will be, probably. The HUD budget 
has a long way to go. But these tax credits have been a very 
potent instrument for encouraging diverse development. But 
there is certainly a shortfall in terms of the demonstrated 
need.
    Any other witnesses want to chime in on this?
    Yes, sir.
    Mr. Poloncarz. If I may, Congressman, all kinds of 
assistance is crucial. But in the city of Buffalo, historic tax 
credits and other types of tax credit programs have been one of 
the key drivers of the economic development, taking abandoned 
warehouses, abandoned facilities, working with tax incentives 
that we offer from local government to make these projects 
actually worthwhile, because they are so difficult to do. And 
if you eliminate those tax credit programs, you are going 
eliminate a great opportunity in some of these older Rust Belt 
communities to take these abandoned buildings and turn them 
into what they are today: housing, new offices that, for 
decades, sat vacant. And if that program was eliminated, that 
would have a tremendously negative impact, especially on the 
older communities with an old building stock.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Missouri, Mr. Smith, for five 
minutes.
    Mr. Smith. Thank you, Mr. Chairman. It is a new year, which 
means this Committee has another chance to mark up a budget 
resolution. The deadline for the congressional budget for this 
coming year is in 91 days. I hope we can start off this year on 
the right track with--hopefully, we pass a budget resolution 
through the Committee, through Congress. A budget provides 
stability, much as you all have testified. Our job on this 
Committee is to establish a framework for the appropriators to 
effectively do their job.
    When Republicans were in the majority of this Committee, we 
delivered on a budget every single year. And for the past three 
years President Trump has, too. But last year, under Democrat 
control, we didn't even attempt to produce a budget resolution. 
Because of failed leadership by the Democrat majority, our 
country is relying on a flimsy two-year agreement that fails to 
provide anything close to the 10 years of certainty to a budget 
resolution.
    Now we are here today to discuss the federal--how the 
federal government can better provide stability to state and 
local governments. Looking over a report that was published 
last week by the majority in preparation for today's hearing, I 
can't say I disagree with you, Mr. Chairman. The report 
states--and I quote--that ``Federal budget uncertainty is 
harmful to states and localities.'' And, quote, ``continuing 
resolutions make it difficult for states to plan and implement 
strategic, long-term investment.''
    So taking the majority's own report into account, why 
hasn't this Committee done its job and marked up a budget 
resolution? That is what we should ask ourselves. Why are 
Democrats OK with continuing resolutions with our government, 
and provide nothing but uncertainty and instability to the 
American people?
    The Committee needs to start doing its job. It is time we 
give our budget process a thorough review, modernizing a broken 
process that will hold Members accountable.
    In Washington State, failing to pass a budget at least one 
month before it is due is a misdemeanor. That is impressive. 
And in California, of all states, their legislators go without 
pay if they don't pass a budget. Washington State, California. 
Pretty serious, serious issues if you don't pass a budget.
    Where are we at, at the federal level? Why are we any 
different? Why should we not have those same kind of 
responsibilities or guidelines? We can do better. I hope that 
we do better. And I hope we get things done this year.
    I yield back, Mr. Chairman.
    Chairman Yarmuth. I thank the gentleman. His time has 
expired.
    And, just as a comment, the Ranking Member and I served for 
the entirety of 2018 on the Joint Select Committee on Budget 
Reform. The gentleman from Arkansas led that joint select 
committee with great distinction and great commitment, and we 
discussed many of these ideas and, unfortunately, could not 
come to any agreement on how to reform the Budget Committee.
    So if you have any specific ideas that--for how we can do 
that, I would love to hear them.
    Mr. Womack. By the way, if the gentleman will yield for 
just a brief moment, for the record let it be known that the 
Chairman of this Committee, John Yarmuth, was a yes vote on 
that budget process reform proposal. And that is not a small 
undertaking. There were two members of the party that voted in 
favor of those proposals, and the Chairman is one of those.
    So I think, in defense of the Chairman, he gets it. He 
understands that this process is broken, and I think everybody 
on this dais would probably agree that the process is broken. 
The solution as to how to fix it, though, is somewhat elusive 
to the Congress right now.
    Chairman Yarmuth. I thank the gentleman for his comments, 
and I would just make one more remark to the gentleman from 
Missouri. Anybody who expects to have certainty for 10 years in 
today's world is badly mistaken, too, I think, or is wildly 
optimistic.
    I now yield five minutes to the gentlelady from Illinois, 
Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. Climate change is 
the greatest challenge facing humanity today. This is--just 
this month alone we saw headlines that said, ``Earth posts 
second hottest year on record to close out our warmest 
decade.'' Another, ``Australia fires push some species to the 
brink of extinction,'' and another, ``Floods, exacerbated by 
climate change, could destroy Venice.' ''' So it is worldwide.
    And I have seen the effect even in my own community, where 
the levels of Lake Michigan are at almost their highest level. 
We saw flooding of Lake Shore Drive in Chicago, and severe 
damages around the lake shore.
    I hope I pronounce it right--Mr. Poloncarz, is that 
correct? Good enough?
    Mr. Poloncarz. That is correct.
    Ms. Schakowsky. OK, good. Last year you reaffirmed Erie 
County's commitment to the Paris Climate Agreement, with Erie 
County government already reducing its greenhouse gas emissions 
by 28 percent. And Buffalo was even designated as a Climate 
Smart Community. So I want to know. How did the federal 
government and investment help Erie County in its effort to 
reduce greenhouse gases, gas emissions, and become a Climate 
Smart Community?
    Mr. Poloncarz. Well, Congresswoman, there is no easy answer 
to that, because there are so many different ways of going 
about it, by ensuring that there are appropriate assistance and 
credits to remove from a coal-based economy, a carbon-based 
economy to a clean economy.
    We have used and developers have used historic tax credits 
to take advantage of building new wind farms and solar farms. 
We proved, through my county, that you can actually meet the 
standard of the Paris Agreement. We met it years before the 
expectation you were supposed to meet it, and we continue to 
see a reduction in greenhouse gas emissions.
    One of the things that has been very helpful is assistance 
from the EPA to create what is called a sustainable business 
roundtable, in which our business community has taken the lead 
and said, ``We want our businesses to succeed, not just 
thinking about two, three, or four years from now, but 50 years 
from now.''
    And so they are using assistance that we have received from 
the EPA to create a sustainable business roundtable to assist 
local businesses, find ways to make themselves more 
sustainable, to use, of course, less fossil-based fuels, but 
also less water, if possible, because we--while we live in an 
area in the Great Lakes that has a substantial amount of fresh, 
clean water, and--we have also seen significant problems with 
that fresh, clean water. All you got to do is ask my friends 
from the other side of Lake Erie about what is going on with 
the algae blooms, and how they had to actually stop drinking 
water.
    Ms. Schakowsky. That was actually on the front page of the 
Chicago Tribune, a picture of the algae bloom, yes.
    Mr. Poloncarz. I lived in Toledo. I went to the University 
of Toledo College of Law. I know the area very well. And I 
can't believe a city in a community that large has basically 
said you cannot drink the water from the municipal system 
anymore because of the harmful algae blooms.
    We have worked very hard to find different ways. There is 
no easy answer. But it does take a government coming to the 
lead and saying, ``We will help others reach the potential that 
they can when it comes to reducing their carbon emissions.'' 
And we have proven it.
    And the good thing in our community is our business 
community has stepped up to the plate and said, ``We want to 
play a part, as well.''
    Ms. Schakowsky. So what would be the impact on your 
community's efforts to address the problem if federal funding 
for the Department of Transportation, Housing, and Urban 
Development or Environmental Protection Agency were cut, as has 
been proposed by President Trump?
    Mr. Poloncarz. Well, it would be substantial, Madam 
Congresswoman. We know that the largest portion of greenhouse 
gas emissions in Erie County right now is directly related to 
transportation costs. So anything that we can do to take 
vehicles off the road and to replace it with trains and other 
types of processes and transportation that is actually not 
using carbon-based fuels is going to make a big difference.
    Community Development Block Grants have a huge impact even 
in smaller communities. A $100,000 grant to a small town or 
village in our rural areas could have a huge impact on, 
actually, their entire budget. And if you take that away, they 
lose the opportunity to take actions to create a cleaner, 
greener community like clean water projects.
    Ms. Schakowsky. I thank you for that. And that multi-
faceted support from the federal government is so important. 
Thousands of experts are warning that climate change could make 
large parts of the earth uninhabitable. And it is critical that 
we invest in preparing communities for their demographic 
changes and fighting for--to save our planet. You are doing a 
great job. Thank you very much.
    Chairman Yarmuth. The gentlelady's time----
    Ms. Schakowsky. I yield back.
    Chairman Yarmuth [continuing]. has expired. I now recognize 
the gentleman from Texas, Mr. Flores, for five minutes.
    Mr. Flores. Thank you, Chairman Yarmuth. I would like to 
thank each of the witnesses for being here today.
    By any number of metrics, our economy is really strong, 
thanks in large part to the policies implemented by Congress in 
2017 and 2018 and by the Trump Administration. The U.S. economy 
is in the midst of its longest period of uninterrupted growth 
in American history.
    I will illustrate this by quoting from Jerome Powell, the 
chairman of the federal Reserve Bank, who stated at the most 
recent Open Market Committee meeting, ``Wages have been rising, 
particularly for lower-paying jobs. People who live and work in 
low and middle-income communities tell us that many who have 
struggled to find work are now getting opportunities to add new 
and better chapters to their lives. This underscores for us the 
importance of sustaining the expansion so that the job market, 
the strong job market, reaches more of those left behind.''
    I couldn't agree more, but the truth is that the real 
barrier to successful state-run programs is to serve--that 
serve to sustain this current economic expansion is not the 
lack of federal funding. Rather, it is burdensome federal 
mandates that deny our states the flexibility and ability to 
innovate.
    So in this regard, in fiscal 2018 federal spending on major 
health care programs totaled $1.2 trillion. About $380 billion 
of that was spent on Medicaid. As all of us know, there are 
several guidelines and requirements that states must abide by 
when spending federal Medicaid dollars. So my questions are 
these, and I would like to direct these questions to Secretary 
Walther or Director Murnieks.
    And Dr. Gordon, I think you mentioned the flexibility 
challenge, also.
    So the first question is, are there any reforms that 
Congress could consider to give states more flexibility in 
designing and executing health care programs so that they are 
better tailored to the needs of local communities?
    Secretary Walther, we will start with you.
    Mr. Walther. First I would like to say that we are very 
pleased with the amount--you know, the way it is working, 
generally speaking. It is a critical part of our budgeting 
process. In order for us to plan on a bi-annual basis like we 
do in Arkansas, it is imperative that we have an idea of what 
those--what that support from the federal government will be 
over the next two years.
    Having said that, there are some areas where it is 
problematic. There is a process called the FMAP process, where 
it is the state's relative proportion to the rest of the United 
States. And it is a wealth index, so to speak. And that can--
that changes from time to time, and it changes the amount of 
money that is supported by the federal government compared to 
the state government. It is a percentage number, it is around 
80/20 or, yes, 70/30, I mean. And----
    Mr. Flores. If I can stop that for just a second.
    Mr. Walther. Right.
    Mr. Flores. So I--so the answer is yes, you need more 
flexibility.
    Mr. Walther. Yes, flexibility----
    Mr. Flores. Let me ask you to supplementally give us more 
information on that, if you don't mind.
    Mr. Walther. Yes, sir, I would be glad to.
    Mr. Flores. So I can get through the rest.
    Mr. Walther. Sorry.
    Mr. Flores. That is very helpful.
    Director Murnieks, tell us about--does your state need more 
flexibility in this regard?
    Ms. Murnieks. Congressman Flores, absolutely. Ohio 
currently, just in the Medicaid program, we have 18 different 
federal waivers. There are 450-plus Medicaid waivers in place 
throughout the 50 states. And I think the magnitude of the 
waivers shows--that illustrates perfectly the restrictions that 
we are under, that we need waivers, and all of the paperwork, 
and all of the bureaucracy that goes with it----
    Mr. Flores. It sounds like we are onto something here.
    Ms. Murnieks. Just----
    Mr. Flores. So, if you would----
    Ms. Murnieks. Absolutely.
    Mr. Flores. If you could supplement and give us more 
information on that----
    Ms. Murnieks. Yes.
    Mr. Flores. And Dr. Gordon, did you mention something about 
the need for flexibility when it came to state funding, as 
well?
    Dr. Gordon. Well, I was actually thinking of Medicaid as an 
economic shock absorber. So the fact that the Recovery Act 
added an increment in spending that was tied to local economic 
conditions, I think, is something that could be made permanent 
so there is more certainty for local--state and local 
officials, if they see a big increase in enrollments, as they 
did at the beginning of the Great Recession.
    Mr. Flores. OK, great. Let me go to the next question. I 
think this is important. I think all of you touched on this.
    As you know, the federal budget process has been broken. 
There, you know, hasn't been a budget passed in the last 
several months. And then the federal funding was on again and 
off again, and we had CRs. Can you please describe the 
practical impacts of Congress failing to budget in appropriate 
funds on time, in terms of making it difficult to plan and 
implement your state budget?
    Let's talk with--start with Director Murnieks.
    Ms. Murnieks. Yes. Thank you, Congressman.
    Mr. Flores. A real quick question--real quick answer.
    Ms. Murnieks. Yes, it makes it very challenging. When we 
came into office, when Governor DeWine came into office one 
year and one day ago, we were in the midst of a federal 
government shutdown.
    Mr. Flores. Right.
    Ms. Murnieks. And that made it very challenging.
    It--we can, for a period of time, keep our programs 
operating using state resources, but that--the time and effort 
dedicated to keeping everything going so that the--Ohio's 
economy and our employees and our staff can have stability is 
extremely challenging.
    Mr. Flores. Thank you. I would ask the rest of you to 
answer supplementally, if you don't mind, after the hearing.
    Thank you. I yield back.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I now recognize the gentlelady from California, Ms. 
Jayapal, for five minutes.
    Ms. Jayapal. Washington State, but I was going to say to my 
colleague from Missouri that he could always move to Washington 
or California. And we have Democratic legislatures and 
Governors in both states. So thank you very much.
    I wanted to start by just saying that federal government 
spending is essential to a real partnership between states and 
local governments and the federal government, and critical to 
our ability to really bring our 50 states together and support 
that partnership.
    We had a budget hearing recently that the Chairman pulled 
together that was around--with economists. And we talked about 
the failed austerity measures in--that have been shown through 
research to really hurt our country, and to hurt our people, 
and certainly to hurt state and local governments. And so I 
wanted to start there and perhaps direct this to Dr. Gordon and 
Dr. Lambrew.
    The past federal government austerity spending times, can 
you give us a sense of how they have affected state and local 
governments in a broad way?
    Dr. Lambrew, perhaps specifically, with your portfolio.
    You want to start us off, Dr. Gordon?
    Dr. Gordon. Sure. People who look at the state-federal 
partnership often talk about these ages of federalism.
    So, for a long time, the federal government and states 
basically operated independently of one another in this sort of 
dual federalism.
    Then there was an era of cooperative federalism, where the 
federal government was expanding its role, but still 
recognizing the strengths of state and local governments, 
delegating about 9 percent of its budget to those governments 
to carry out important functions like social services and 
public works.
    Then you saw a period of sort of proliferation of federal 
grants, some retrenchment from that, consolidation of grant 
programs, and then an era of decline in real per capita grants 
going to state and local governments in the 1980's.
    That has rebounded. state and local governments are now 
getting on, as a whole, about 25 percent of their revenues from 
the federal government. There are a lot more creative uses of 
federalism, things like Race to the Top during the recession, 
where the federal government leveraged funds to get state and 
local governments to make certain investments in things like 
information technology.
    So there have been these various areas of federalism, and 
it has changed throughout the years. There is nothing to say 
that we are in the right place right now. But I think we are 
learning from these experiments, especially things that are 
undertaken sometimes during hard economic times, as you 
mentioned.
    Ms. Jayapal. Dr. Lambrew, you oversee a very important 
portfolio, safety net portfolio. Tell us what happens when the 
federal government cuts back, particularly in times of 
recession, but really in both instances of growth and 
recession.
    Dr. Lambrew. Sure. And while I can't speak quite to my 
experience in Maine in the last years, since our economy has 
been good, and the federal government has not yet cut back on 
funding, looking back I was in the Obama Administration when 
2009-2010 hit. And so we worked hard to figure out, with our 
state partners, how do we support Medicaid, federal financing 
percentages, increases to target to unemployed states--or, 
excuse me, states with high unemployment. But I would say we 
thought, at the time, if we could make it permanent, then you 
would actually end the uncertainty.
    Fast forward. In the state of Maine we do have a Medicaid 
contingency fund, in case, because we need to. We do think 
through, if there is a downturn, do we have enough money for 
TANF and the low-income supports. And we have to do that within 
our own means, because there is not the automatic stabilizers 
that Dr. Gordon talked about.
    So we would prefer to be able to use the money we have 
effectively to implement programs on the ground, and not have 
to set aside money as much as we do, because there is not the 
automatic response that the federal government is going to be 
there for us.
    Ms. Jayapal. Thank you. I want to go back to housing and 
homelessness. This is something that our communities across the 
country are struggling with. And we do have a lot of tools at 
our disposal, including McKinney-Vento funds, CDBGs, low-income 
tax credits, and, of course, HUD vouchers and public housing.
    Mr. Poloncarz, could you talk to us? You called Community 
Development Block Grants a vital lifeline that help communities 
develop affordable housing and infrastructure. Tell us more 
about why those funds are so needed in your community, and how 
you have used them.
    Mr. Poloncarz. Well, when we think about Community 
Development Block Grants, they can range from very large 
affordable housing projects in the city of Buffalo to, as I 
previously said, clean water projects in a small little rural 
community, where we may be assisting them to do repairs on a 
sewage treatment facility. And it is the kind of things that 
people don't necessarily think about government doing, but they 
want government to ensure that it is there.
    And so, when you talk about housing, every community in the 
United states has a homeless problem. Thankfully, our community 
doesn't have as much as some other areas. Maybe it is because 
people just--it is tough to be homeless in Buffalo in the 
winter. But we have had individuals die outside during winters 
when they didn't have appropriate housing. We have homelessness 
and issues associated with individuals in our rural community, 
just like we do our cities.
    And if we don't have the funds to help provide assistance, 
not just through the county--because, remember, the county 
sometimes is also a pass-through to a third-party not-for-
profit that is actually delivering the actual service to the 
individual or the family. So if we were unable to do that, if 
there was a shutdown, or there was a slowdown, or there was a 
cut in those programs, we, the county, now have to make a 
determination. Are we going to use our own funds?
    Remember, out of my $1.8 billion budget, only $125 million 
of that is discretionary. The rest is all mandated. So then I 
have to make a determination. Am I going to cut other programs, 
or am I going to raise taxes for this service which the vast 
majority of the public doesn't even understand we provide? And 
that is why it is important.
    Chairman Yarmuth. OK----
    Ms. Jayapal. Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. The gentlelady's time has expired. I now 
recognize the gentleman from Texas, Mr. Roy, for five minutes.
    Mr. Roy. I thank the Chairman. I thank all of the witnesses 
for coming and taking your time out to be with us here today.
    I have been intrigued by some of the language that I have 
heard here today. A lot of my colleagues like to word--use the 
word ``investment.'' It is one of those euphemisms that always 
gives me a little bit of a smirk about where that dollar is 
coming from. I heard a lot about a partnership between the Feds 
and the state. I heard here about failed austerity.
    Well, I would agree with failed austerity, because we are 
sitting here with $23 trillion of debt piling up around our 
ears for our kids and our grandkids. So, yes, any kind of 
effort at austerity has indeed failed. We are currently racking 
up roughly $110 million of debt per hour. So during this 
hearing, congratulations, we are going to raise a--rack up 
another $110, you know, $220 million of debt. That is what is 
happening as we speak. Those are the real numbers. That is what 
we are facing.
    So what I am curious--as I look to my folks here testifying 
from the perspective of states--I worked in state government. I 
was the first assistant attorney general in Texas. I worked at 
the Texas Public Policy Foundation, focusing on federalism 
issues. I appreciate that states are here.
    I think my question is, is when we are looking at states, 
my question, for example, from the gentleman from New York, Mr. 
Poloncarz, is there any federal restriction on the ability of 
the state of New York to raise taxes or come up with revenues 
to produce whatever the state of New York wants to do?
    Mr. Poloncarz. I am not aware of any federal restriction. 
The local governments in New York are under a 2 percent tax cap 
restriction.
    Mr. Roy. By the state of New York?
    Mr. Poloncarz. Correct.
    Mr. Roy. Right. So the state of New York makes its choices 
about what it wants to do with respect to taxes, and how it 
wants to spend its money, without any interference from anybody 
in this body. Is that correct?
    Mr. Poloncarz. I am not aware of any restriction on how 
many taxes we can raise as a result of a federal program.
    Mr. Roy. How many million people live in New York State?
    Mr. Poloncarz. Well, that varies, but there is 
approximately 1 million in my community, and I believe there is 
about 16--well, 18 million, I think, in New York State. It is a 
urban, suburban, and rural----
    Mr. Roy. It might be a little bigger than that. But OK. So 
there is a lot of people in the state of New York. It is a 
full-functioning economy, they are able to produce revenues for 
the state of New York by virtue of taxing their citizens in the 
state of New York.
    I think my question would be--is why are 300 people a day 
moving away from New York City and the tri-state area? Why are 
300 people a day flocking away from that area and moving to, 
for example, in Texas, where we have 1,000 people a day moving 
to Texas?
    I would suggest, because of the laboratories of democracy, 
we are able to see that individual states are able to create 
systems and create environments in which they think will create 
prosperity and growth and economic opportunity, and people are 
flocking in droves to those places that are seeking to create 
an environment where you can have economic growth and 
opportunity.
    I would ask if Mr. Walther, the gentleman from Arkansas, if 
you might agree with that rough statement that I just made.
    Chairman Yarmuth. The----
    Mr. Walther. I would. Obviously, there are a lot of things 
going on in Texas: no income tax on personal income, things 
like that, weather--probably a weather difference. But Texas--
--
    Mr. Roy. It is a factor.
    Mr. Walther. Texas has become quite a state when it comes 
to technology, and has brought a lot of people in. We compete 
with Texas also in Arkansas, so I have seen it from a little 
north of you.
    Mr. Roy. Yes, sir, you do, indeed. We could talk a little 
football, but we haven't had much to talk about lately in 
either state.
    But here is one thing I would note. I mean I am just 
looking--I pulled up a CNN list here. New York comes in No. 1 
in the overall taxation burden on its folks. I guess my point 
here is we have got folks here talking about how important it 
is for these programs, for states to get money from the federal 
government.
    Well, there is no more room in the inn. We have $23 
trillion of debt, $100 million of debt an hour. I think if the 
states are looking to the federal government to be fiscally 
responsible and to solve your problems, and to create the 
programs that you want for the citizenry, well, you should go a 
different direction.
    States need to come up with ways to solve their own 
problems. States, when they do that, do that much more 
effectively than people governing from Washington, trying to 
make decisions for 330 million Americans.
    Right now the state of Texas loses almost $1 billion a year 
in dollars that we put out for transportation dollars for the 
dollars we get back. The state of Texas has a lot of 
transportation issues. I would like to get that money back. I 
would like the dollars to stay in the state of Texas.
    I would like the federal government to focus on the one 
thing it should do, which is securing the United States. Texas 
deals with the burden of a broken border, where we have 900,000 
people who have been apprehended in the last year, in the last 
fiscal year, coming into, heavily, Texas.
    When is this body, this Congress, going to do its job, its 
constitutional duty, to defend the United States of America, 
secure the borders so that Texas and border states don't have 
to bear the burden of a failure of this body? When will this 
body embrace some of the reforms we have talked about here 
today to be responsible? And when will states recognize that 
coming to Washington for more money is ignoring the very 
responsibility of states to do what they do best, which is take 
care of people at the state and local level?
    I thank the chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from New Jersey, Mr. Sires, for five 
minutes.
    Mr. Sires. Thank you, Mr. Chairman. You know, over the 
years I have put together a few budgets. I have been a mayor, I 
have been a speaker of the New Jersey Assembly. So I think a 
few budgets have come along my way.
    And talking about uncertainty, I think that is, obviously, 
one of the biggest problems, especially at the local level. You 
know, you do something today, and they talk about all these 
cuts, and it is gone tomorrow. Samples like the cops program. 
You hire cops, next year it is gone.
    Then we pass things in Washington requiring certain 
uniforms for fire departments and certain things. That is a lot 
of money that comes in. As more communities want to buy a 
pumper, it is $800,000. That is not to mention a ladder truck 
that is so expensive.
    So when we talk about uncertainty and partnership, the 
government certainly has a role to play, because communities 
just cannot handle these kind of things to secure--for them to 
be secure and be safe.
    So when I hear all these cuts--the CDGB (sic) program, you 
mentioned it, sir. You know, I mean, that is the lifeline of 
our communities. You know? And then not to mention charity care 
for hospitals.
    I mean I could go right down the line of some of the things 
that, when they talk about cutting, that puts pressure on the 
local individual who is already over-taxed.
    And not to talk about infrastructure, you know, in New 
Jersey we have this tunnel that we need to rebuild. The 
northeast region produces about 20 percent of the GDP of this 
country. We have a tunnel--we have two tunnels 100 years old. 
We have a bridge that, if the lifeline of these tunnels, the 
commuter--that is over 100 years old, and it doesn't lock 
properly. You need somebody with a sledgehammer to line it up 
properly.
    I don't think people realize the impact that, if these 
things go, that it is going to have on the entire country. 
Because the region just generates so much money for the 
government.
    New Jersey, New York, Connecticut, we are all sending 
states, in terms of sending money to the federal government. 
And we don't get money back like we sent. I think New Jersey--I 
think it is, what, 28 percent of what we get from the federal 
government?
    So--and I am a firm believer of this partnership with 
certainty. If we can bring it to a certain--to a degree.
    We talked about tax credits. Everybody talks about 
affordable housing. But the only way that you can build now, 
not just affordable housing, but senior citizen housing, is 
through tax credits, because there is very little money.
    So if you take away tax credits, where are these 
communities going to find money to build a senior citizen 
building? If you take away all this money, it falls on the lap 
of the community that does not have that money. So there are 
certain government programs that are certainly needed for 
communities to be able to deal with the situation.
    I come from a very urban district. The town that I live 
in--I always say this--it is 1 square mile, and it has got 
52,000 people in it. I represent Hoboken, New Jersey, one mile 
square. It has got about 53,000 people in it, not to mention 
Jersey City, which is going to become the largest city in New 
Jersey with the next census.
    So these urban areas are under more pressure than some of 
these other parts of the country. And they need more. 
Unfortunately, that is the reality of it. They pay more, but 
they need more. So when we talk about cuts and some of the--
and, quite frankly, some of the legislation we pass here, you 
know, sometimes the impacts on these communities, it is really 
tough.
    So all I can say is a partnership is necessary to get 
these--some of these projects through, to continue to generate 
income for the federal government. If you stop people from 
commuting to New York, you are going to lose money in the long 
run, because New York is the engine that generates a great deal 
of money that goes to the federal government.
    I guess I don't have a question, but I just give you a rant 
and rave here for going through so many years of putting 
budgets together.
    [Laughter.]
    Mr. Sires. You know, it was never easy.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Georgia, Mr. Woodall, for five 
minutes.
    Mr. Woodall. Thank you, Mr. Chairman, and thank you for 
holding the hearing. I appreciate you all being here.
    Mr. Poloncarz, you referenced transportation infrastructure 
spending. I serve on the Transportation Committee, as well. We 
actually don't have any problem spending the money, it is 
raising the money that we have a problem with. The fourth 
quarter of last year, the federal government spent $1.16 
trillion. That is a 7 percent increase. We brought in a little 
over $800 billion, that was a 5 percent increase in revenues. 
But you do that envelope math, you find out we spent about 43 
percent more than we brought in. And I am guessing any of your 
jurisdictions, if we freed you up to spend 43 percent more than 
you are bringing in, you would be wildly successful, too.
    So what I want to find out from all the local expertise is 
you have talked about flexibility, which is taken away when 
money comes from the federal government. You have also talked 
about uncertainty, which is created when the federal government 
hits our speed bumps. When we talk about block grants, in 
particular, we are trying to create some certainty here.
    I don't think anyone would deny in a time of recession, in 
a time of natural disaster, as many of you mentioned, there is 
a huge role for the federal government to come in and help our 
localities. But that is not where we are right now, today, 
while the federal government is spending 43 percent more than 
it is bringing in. We are at a time of great economic 
prosperity in our localities.
    So tell me why now isn't the right time to have some of 
these block grant conversations that creates federal government 
budgeting certainty, and stipulating that in those times of 
recession, those times of crisis, the federal government will 
need to step up and be a better partner than--can I start with 
you, Dr. Lambrew?
    Because we bragged so much about your risk pool there in 
Maine, and there is so much that we can learn from your 
jurisdiction, from Mr. Poloncarz's jurisdiction, tell me why 
now isn't the right time for us to bring some federal 
certainty.
    Dr. Lambrew. So I would argue that having--knowing at the 
state level that if there is some unexpected costs, and 
recessions are one source of that, they are not the only one.
    So, for example, we know that about a decade ago a new drug 
came onto the market that cures hepatitis C, cures it, but very 
expensive. Without having some ability to have some additional 
federal funding to match--not to just 100 percent pay for that 
new drug, but to match it was important.
    Louisiana had Katrina. Their population increased. Natural 
disasters is a cause.
    So we have multiple reasons for uncertainty----
    Mr. Woodall. Stipulating that all of those things are 
true----
    Dr. Lambrew. Correct.
    Mr. Woodall. If I agree to be a good federal partner with 
you on those unexpected occurrences, why is it unreasonable to 
ask you to be a good state partner to me by giving me a certain 
expenditure for normal expenditures.
    Right now the skin in the game is just out of whack. We saw 
it in Georgia, where we created a provider tax to say, well, we 
will just have a provider tax. That way we will get two-thirds 
more from the federal government than what we were getting from 
them before, right? We are all clever folks at gaming the 
system. We rob banks because that is where the money is.
    I want to be a good partner, and we are not now. And then 
that is why you all came to town, because we are not a good 
partner to you when we get into federal government shortfalls. 
But if not today, when is the day to have the conversation with 
my state and local partners about capping my federal government 
involvement in your communities during a time of normalcy?
    Dr. Gordon pointed out that 90 percent of education in my 
community and your communities is funded by you all. And yet my 
board of education spends a lot more time talking to me about 
federal restrictions than they do talking to local families.
    Secretary Walther, you know, Arkansas and Georgia, we have 
got a lot in common with one another. I don't want to be a bad 
partner. I don't want to shirk my responsibility. I just grow 
weary of, ``If only the federal government was doing more.''
    Well, I am doing so much more that I am doing 43 percent 
more than the revenue that I am bringing. And guess what? When 
I go to get that 43 percent of the revenue, it is going to be 
high-income jurisdictions, like New York. It is going to be 
successful jurisdictions like California. The taxpayers are 
going to be the taxpayers.
    Mr. Secretary?
    Mr. Walther. One observation from what you are saying is 
there--right now we are at a certain place in the budgeting 
process. We are--you know, the states and local governments are 
receiving a fairly known amount. If we start making 
dislocations of that, it may, on a large basis, be--not mean 
anything to you when you are looking at it from the very top. 
But if you are at the bottom, where the money actually gets 
distributed and affects the citizens of a community, and they 
lose that, it could be devastating.
    So it is important that we work together, that we look 
eyeball to eyeball, and understand--you understand our issues 
and we understand yours, and we work out a solution. It is--
that is the way it has to be done.
    Mr. Woodall. The Chairman knows, from our work on the Joint 
Select Committee last cycle, there is shared understanding that 
the piper is going to come to be paid, and those folks that you 
point out, Mr. Secretary, that can handle that dislocation the 
least, are going to be the ones who are affected the most when 
that day comes. And I just don't want us to miss this 
opportunity at the top of the economic cycle to solve some of 
these problems.
    I appreciate your indulgence, Mr. Chairman.
    Chairman Yarmuth. Absolutely. The gentleman's time has 
expired. I now recognize the gentleman from Virginia, Mr. 
Scott, for five minutes.
    Mr. Scott. Thank you, Mr. Chairman. Do you have the charts? 
Thank you.
    [Chart.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Scott. Here is just a couple of charts. We have heard 
all about the--is it going to go in?
    Can we go to the next chart? Well, let me go back to this. 
This, if it was filled in--can you go back one? If it was 
filled in, it would show the last three years under Trump is 
189,000 jobs per month. Under the last three years of Obama, 
224,000 jobs. And you could see in the jobs, when the Obama 
Administration proposal went in 2009, we were in the bottom. We 
weren't--we were losing a lot of jobs, and we recovered. And 
you would also see that there wasn't a wrinkle when the Trump 
Administration proposal went in. Next chart?
    [Chart.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Scott. This shows unemployment rate. At the top of--the 
worst unemployment was the Obama Administration economic 
proposal. And as you go down, you don't see a wrinkle anywhere 
to suggest that the Trump Administration had anything to do 
with it.
    Mr. Scott. And the final chart shows that, going back into 
Nixon, Ford, every Republican, without exception, ended up with 
a worse deficit position than he went in with. And every 
Democrat, without exception, ended up with a better deficit 
situation than they started off with.
    [Chart.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    You know, just to get--as we discuss who is in--who is 
getting credit for what, we just like those on the table. Thank 
you.
    Ms. Lambrew, Maine expanded Medicaid, 43,000 people got 
insurance. Can you tell us what effect that had on the state 
budget?
    Dr. Lambrew. Sure. We are in the process of doing that kind 
of quantification. It has just been about a year. But we expect 
that, in the two-year budget cycle that we operate, that we 
will be able to get over $700 million more in federal funding 
to invest in opioid use reduction treatment. For example, one 
out of 10 expansion enrollees has gotten some treatment for 
opioid use reduction, 16,000 people got mental health treatment 
in the last year, over 3,000 people got a cancer screening, 
which we think will have a long-run savings to the state and 
the federal government, as people get care detected earlier.
    We also know our hospitals are beginning to experience 
declines in uncompensated care, which, at the end of the day, 
is good for all citizens, as private premiums come down with 
less of a cost shift in the state.
    So we are quite excited about the early results of our 
Medicaid expansion----
    Mr. Scott. What about state revenues? With all the 
additional spending are you getting any additional revenues, 
tax revenues?
    Dr. Lambrew. So we don't single that out again. I can say, 
generally, that the revenue forecast for the state of Maine has 
been good. It got revised upward in December, so the revenues 
in the state of Maine are strong, at the same time as the 
Medicaid expansion has----
    Mr. Scott. So the expansion got in more federal money, and 
probably increased revenues as a direct result of expanding 
Medicaid and covering 43,000 people?
    Dr. Lambrew. There was certainly no decline in revenue. At 
the same time, revenue was going up in that period.
    And I will note, going back to what happens in a bad time, 
the Medicaid expansion is exactly the right policy you want to 
have in effect, because that is covering--as one of my 
colleagues said--the working poor. Should they lose their jobs, 
they could, without the Medicaid expansion, lose their health 
care, put strain on hospitals, put stress on local communities. 
With a 90 percent federal matching rate for that group that is 
most vulnerable to expansions, I would argue, is one of the 
better recession-proof policies that we have in the state of 
Maine.
    Mr. Scott. Thank you.
    Secretary Walther, you mentioned your levee situation. Have 
you--and, obviously, if you have better levees when storms 
come, you will have less damage. Have you projected whether or 
not the cost savings and reduced damage due to the levees would 
be more than or less than the cost of constructing the levees?
    Mr. Walther. No, sir, I do not have that information.
    Mr. Scott. Do you--is there any way that you can build the 
levees without federal support?
    Mr. Walther. There is. It will take a lot longer period of 
time. But I am sure it would be possible. A lot of that is done 
through local levee boards that work to generate revenue on a 
local basis to complement the money we get from the federal 
government, too.
    Mr. Scott. OK. Ms. Gordon, you mentioned some of the things 
that we can do, counter-cyclical spending. We have counter-
cyclical spending with food stamps and unemployment benefits. 
What should we be doing before a recession starts to be ready 
for a recession?
    Dr. Gordon. Thank you for the question, Congressman. I 
think that people often talk about automatic stabilizers in the 
tax code, federal tax burdens that go down automatically when 
people earn less income, or social safety net programs, as you 
mentioned. But I think one aspect that gets overlooked is this 
counter-cyclical assistance to state and local governments, 
which, as the Congressman mentioned, you know, do have skin in 
the game, and they are providing these services as soon as they 
are demanded. There is not always necessarily a backstop from 
the federal government.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Pennsylvania, Mr. Meuser, for five 
minutes.
    Mr. Meuser. Thank you, Mr. Chairman. Thank you all very 
much for being here with us today.
    We are certainly experiencing quite an economic boom. And 
economic booms, job creation, is the number-one revenue 
generator for governments. The economic boom is due to a number 
of things, but the primary factors are certainly a less 
regulated economy.
    Without a doubt, the tax cuts--I think the tax cuts 
exceeded anyone's expectations, even the highest of 
expectations, by putting more money in people's pockets, and in 
small business, and in large businesses that employ millions, 
of course. Those companies are reinvesting, and people have 
simply more money to spend how they see fit. And the multiplier 
effect takes place far more effective than any targeted 
spending, stimulus type of spending from the federal government 
or any level of government.
    Trade is a huge factor. It completely opens up new markets 
for our--best products in the world are made in the U.S.A.--
products and farm goods.
    Low interest rates play a very big role, and that is the 
case.
    And having low costs and dependable energy at our 
disposable--at our disposal, which is not affected by 
geopolitical Middle East and military events.
    So, anyway, we also have something known as the Tenth 
Amendment, where the powers not delegated to the United States 
by the Constitution, nor prohibited to it by the states, are 
reserved to the states and to the people.
    So, all that being said, I use a very simple example. Think 
of your traffic lights in your home town. Imagine your federal 
government was in charge of your traffic lights. First of all, 
if there was ever a problem, it would take a while for them to 
get fixed. Whether or not they worked right or not would be 
relatively up for grabs. And they always seem to work extremely 
well, so thank goodness we are smart enough to have where the 
funding takes place for such things as close to the scene where 
it is needed as possible, where the proverbial rubber meets the 
road.
    I was revenue secretary for the Commonwealth of 
Pennsylvania for four years. And in one of our budgets we 
initiated block grants to counties. The block grants, depending 
upon the funding, were anywhere from a 15 to 20 percent 
reduction from the previous year. Initially, there was a lot of 
squawking. How can we do that?
    Then we asked the counties what they thought: 66 out of 67 
counties felt they could do a far better job with anywhere from 
15 to 20 percent less from the state government, and it worked 
out very well.
    So I am going to ask you about block grants related to 
Medicaid, certainly education, transportation. And, you know, 
under Obamacare there were some waivers given, of course, to 
states related to health care.
    So Mr. Walther, I will start with you. What are your 
thoughts on the effectiveness of federal block grants to the 
states?
    Mr. Walther. From our point of view, they are much easier 
to administer and to get the dollars to those who need it. In 
other words, you--we get a block and then we determine, on a 
local level, what--where those dollars go, based on the 
requirements that the block grant actually has in it. So it is 
a great way of doing it.
    And some places we get that, and some we don't, but it 
would be a preference, I guess from the state's point of view, 
to--the more we can do that, the better it is in administering 
and getting the dollars to those who need the money.
    Mr. Meuser. Great. Ms. Murnieks, related to Ohio and your 
experience?
    Ms. Murnieks. I would concur that the more flexible we can 
be in our funding and how we are able to dedicate the funds to 
the important programs that are going to have the biggest 
impact locally, the more flexibility that could be provided in 
that, whether it is through block granting or another 
methodology, would be appreciated in Ohio.
    Mr. Meuser. Great, thank you. And let me ask you this, Ms. 
Murnieks, while you are speaking there. What does the federal 
government do well for Ohio, for the states? What kind of 
synergies--what funding initiatives and cooperative efforts are 
effective, and not only appreciated, but delivered a good 
return on investment?
    Ms. Murnieks. Well, I can say that when we look at the 
Medicaid program overall, that has enabled us to address the 
opioid addiction program and the drug problem that we have had 
in the state of Ohio. I would say that more flexibility would 
be appreciated, but that partnership has worked well in Ohio.
    Mr. Meuser. Thank you.
    And, Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Michigan, Mr. Kildee, for five 
minutes.
    Mr. Kildee. Thank you, Mr. Chairman, for recognizing and 
for holding today's hearing. This is a subject that I spent a 
great deal of my career before coming to Congress working on, 
particularly in terms of federal investment and the way the 
federal government can support community and economic 
development.
    I mean, after all, the best way to provide for sustainable 
communities is to make sure that they have vibrant economies. 
And the federal government does have a role--can have a greater 
role, I think, in supporting that.
    Our states do rely on significant assistance from the 
federal government. The data that has been discussed in this 
Committee makes that point very clear. But those state programs 
and state governments' ability to be more stable allows states 
to invest in cities and towns, as well. So reduced federal 
support has a cascading effect not just on state budgets. But 
what we have seen is that states that are under fiscal stress 
tend to pass their stress on to local governments, which are 
creatures of state government.
    Add to that the reduction in the commitment that this 
federal government has made directly to community development 
through programs like--and, Mr. Poloncarz, you mentioned the 
community development block grant program. This is one of those 
programs where local priorities can drive funding decisions.
    But, let's face it, I mean, we just haven't provided the 
support at a scale equal to the need in many of these 
communities. Those cuts in community development block grant 
support has a real impact on basic elements of civil society in 
chronically distressed communities.
    So perhaps Dr. Gordon and then Mr. Poloncarz, if you might 
discuss maybe in a little greater detail what you think the 
needs--CDBG being one way to address it, but in these left-
behind places, Dr. Gordon, that you referred to, these 
chronically distressed communities that seem to be immune to 
up-cycles, there was a conversation about counter-cyclical 
investment. There are communities, a whole subset of American 
communities, that are completely immune to up-cycles.
    I happen to represent a string of those older, industrial 
communities. I know you have all heard me talk about my home 
town of Flint. It is the, you know, I think the case study of 
what happens when we see chronic distress.
    Could you comment on where you think the federal 
government's role could be enhanced, each of you, particularly 
for these chronically distressed communities?
    Dr. Gordon. So I think the federal role is typically 
thought of as addressing these spillovers, so the Congressman 
from New Jersey mentioned that you have bridges that connect 
states that people use every day to go from where they live to 
where they work. But there are also externalities from letting 
places fall behind, not to mention that there is just a sense 
that, as Americans, we want to provide a certain decent minimum 
for everyone, a certain level of access to goods that are 
necessary to live a healthy and productive life. So the federal 
government has a role in helping these places that are facing 
chronic challenges that come from things like trade and 
external economic events.
    One point that I tried to make in my testimony is that the 
federal government has an arsenal, really, at its disposal 
already in the $700 billion that it spends annually in federal 
grants, and that those grants could be better targeted to 
places that are in need. There have been experimentation during 
natural disasters, during economic disasters to tweak these 
formulas to make them more responsive to differences in local 
need and local cost and local fiscal capacity.
    In my own work I have found that most states face a gap in 
what they could raise in revenues and what they would have to 
provide in spending to meet national benchmarks. federal 
governments offset those gaps in about half of all states, but 
gaps remain in many, many states. And so, from my perspective, 
I think the federal government should look at the tools that it 
already has, and try to use them more effectively.
    Mr. Kildee. Mr. Poloncarz, you play a role in your 
community similar to one that I once played. I wonder if you 
might comment on the effective for your community, but also the 
other places that you are familiar with around the state that 
may be facing chronic distress.
    Mr. Poloncarz. Well, the problem with chronic distress, 
Congressman, is it is chronic because you have just a never-
ending cycle. You lose businesses, you lose tax base, you lose 
jobs, people move. What ends up happening, you still have the 
same need for the people that are left in the community, but 
you have less revenue now to pay for it on the local level.
    And we see that in large, urban centers, like the city of 
Buffalo, which is seeing a tremendous revival. But depending on 
how you quantify it, it may be still considered the third or 
fourth poorest city in America. And the same thing in rural 
communities, where I talk to town supervisors and they have 
some of the same issues and same problems.
    And on an annual basis, our consortium comes together to 
determine how we are going to spend Community Development Block 
Grants, and it is never enough. And we are then basically 
thinking, OK, what did we do last year, what did we do two 
years--because we helped that community out three years ago, we 
helped this community out two years ago. Now who can we help 
out this year, so that it is fair?
    But everyone sits at the table and says, ``We could do so 
much more if we had additional revenue to assist us in those 
projects,'' and it really matters in a community where they 
cannot generate more revenue because they have a declining 
population and a declining tax base.
    Mr. Kildee. Thank you all very much, and I yield back.
    Chairman Yarmuth. Yes, the gentleman's time has expired. I 
now recognize the gentleman from South Carolina, Mr. Norman, 
for five minutes.
    Mr. Norman. Thank each of you for coming here.
    Let me mention one thing about the jobs numbers that I saw 
up there. I had a constituent call me back during the Obama 
years, and was questioning me on the jobs now versus the jobs 
created then.
    And so I delved into it. The jobs created then, the 
difference was it was government jobs. It was for more 
bureaucracy. What this President has done is create private-
sector jobs. Ask any business. They will tell you they are 
investing in their business, they are putting equity in, they 
are excited. And it is from cuts in regulation, not expanding 
regulations. That is the main--one of the main differences. For 
every one being proposed, this President has cut 15 to 20. He 
is a businessman.
    Second, I would like to say that one thing both sides can 
agree on is infrastructure: roads, streets, bridges. The issue 
is--and Mark, you mentioned it--is the money is never enough. 
You can't have enough money, and--which comes to my question 
for each of you.
    I am a contractor. I am from the private sector. I have 
seen firsthand where, with the same contractor, him charging 
$400 per square foot for pavers, he is charging me 110. And he 
is making money at 110. I said, ``Where is--explain this to 
me.''
    He said, ``It is government.''
    What checks and balances can we put in play so that the 
block grants that you support will--the money will go further, 
and that it will not be taken advantage of?
    And I will start, Doctor, with you.
    Dr. Gordon. Yes--oh, sorry.
    Dr. Lambrew. There are two doctors.
    Dr. Gordon. Which doctor? Yes.
    [Laughter.]
    Dr. Gordon. So I think, since the beginning of time, 
Governors have come to Washington and said that what we really 
need is more money, or the same amount of money with fewer 
strings attached. And from the federal government's 
perspective, of course you want to limit budget exposure, and 
you want to have restrictions on gaming and manipulating the 
system.
    I would just argue that there is a cost. As an economist, 
we are always talking about tradeoffs. And so some of these 
maintenance of effort requirements, matching requirements, 
reporting requirements, basically, you know, inhibit states 
from innovating, and also might get in the way of the aims of 
the program in the first place.
    Mr. Norman. You want me to tell you what cured it in the 
situation that I just gave you? Competition. We got contractors 
from out of South Carolina that were willing to come in here. 
You had such a difference. Competition is where you have the 
dollars go further. And I think both sides can agree that is a 
good thing.
    Doctor?
    Dr. Lambrew. And I would just add I--that is what we have 
been doing in the state of Maine. We work hard on competitive 
procurement, to make sure that we are really trying to look out 
to see who can do it best, highest quality for a good price.
    But I would note that we should look hard at the 
regulations that have been coming out recently, because, while 
there may be fewer of them, they are often times limiting state 
options. For example, two regulations this year for the SNAP 
program would limit state choices.
    In the state of Maine we would have to conform to standard 
utility allowances that are more national. That would mean a 14 
percent cut in our state that has high utility costs because of 
heating in the northern part of the state. We would have 
limited eligibility in what is called broad base categorical 
eligibility: 44,000 people in Maine could lose eligibility 
because state flexibility is taken away. And I mentioned this, 
Medicaid financial accountability regulation. That would affect 
all states' flexibility about how they have, over years, funded 
their state programs and paid for their hospitals.
    So I think we ought to be precise when we talk about 
regulatory burden. There may be fewer regs, but some of the 
regs that we are seeing would actually go backward, in terms of 
supporting states.
    Mr. Norman. And this is what I would ask you to do. You 
put--like you put a balance sheet, put on the things that the 
regulation is supposed to provide versus why you think it is 
not there.
    And also, all--each one of you all are at a good vantage 
point to offer cuts, as well as things that needed to be 
changed. And nothing lasts forever. Our family budgets, 
business budgets, are modified every 30 days. So to have things 
in place that aren't sunsetted makes no sense to me.
    Mark?
    Mr. Poloncarz. I certainly agree with a number of your 
points. One of the things that we certainly have, and 
especially when it comes to transportation, that is implemented 
in every project are requests for proposals, and taking the 
lowest responsible bidder. I have seen the bids come in and 
scratch my head and seen how they are so out of numbers. But 
then you go with the lowest responsible bidder. It works in 
certain areas, it may not work in other areas.
    For example, in the Medicaid program we know that there is 
many more people who are now on the program. In Erie County 
alone it is approximately 80,000 more since the Affordable Care 
Act. But we haven't seen an increase in some of the dollar 
values associated with the age groups, because it is the 
individuals 65 and older, and end-of-life care and nursing care 
that are driving the costs associated with it. And when you 
have a country, so to speak, where we are trying to make people 
live longer, and we have been able to reduce the costs and 
ensure that we are providing health care for youths and 
families, but when we see this dramatic increase in costs with 
the individuals for end-of-life care and nursing care at the 
same time the number of enrollees goes down, I am not certain 
how we control that aspect of it, because we all want to live 
longer lives.
    Mr. Norman. Transparency. One of the big things is 
transparency, and having a gatekeeper that has no interest in 
it going up or down, that knows the system. That is the best 
way that I know to do it.
    Larry?
    Mr. Walther. Just a----
    Chairman Yarmuth. The gentleman's time is--go ahead and 
finish the question. The gentleman's time----
    Mr. Walther. Just a quick comment. What the states need to 
do is still have accountability with the spending of the money, 
and hopefully--not hopefully--when we should have more savings 
up front to offset the cost that might be incurred on the end 
where you have the accountability.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Nevada, Mr. Horsford, for five 
minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman, for 
holding this hearing to discuss the important topic of federal 
investments and what they mean for our states.
    As we await the President's Fiscal Year 2021 budget 
blueprint, it is important for us to remind the President of 
all the good that federal investments bring to our states and 
local communities, its families and workers.
    Nevada is one of the few states that meets every other year 
in our legislature, and is on a part-time schedule. So it is 
important that we have budget certainty. And that includes 
certainty for what money we receive from the federal 
government. Like many of the experts on the panel and some of 
my colleagues, I previously served in the state legislature, 
and was the senate majority leader not so long ago. And it was 
during the time when we faced our state's worst budget crisis, 
during the Great Recession. We actually lost nearly a third of 
our state's revenue.
    Nevada's budget deficit, as I said, was one of the worst in 
the nation. Our unemployment and home foreclosure rates were 
among the country's highest. Fortunately, the Obama 
Administration signed into law the American Recovery and 
Reinvestment Act of 2009, which provided $1.5 billion in direct 
aid, including funding for our schools, for states' maintenance 
of effort, as well as Medicaid assistance, as well as other 
competitive grants that collectively created and saved nearly 
34,000 jobs in my state.
    Today we are one of the strongest economies in the nation, 
with record job growth since 2010, including small business 
creation, especially for women of color, and an increased 
housing appreciation.
    Additionally, Medicaid expansion in 2014 provided new life 
to so many Nevadans. Nevada was one of the first states to 
expand Medicaid under the Affordable Care Act, and I give 
credit where credit was due. I had the opportunity to work with 
then-Republican Governor Brian Sandoval. He was the first 
Republican Governor in the country to enact Medicaid expansion. 
From that we now have 630,000 Nevadans currently on Medicaid, 
including children, pregnant women, seniors, and individuals 
with disabilities. And Nevada has increased Medicaid enrollment 
from 2013 to May 2019 by 90 percent. We are second-highest 
percentage increase in the U.S., second only to the Chairman's 
great state of Kentucky.
    Well, despite all of these gains, and the fact that we have 
been able to cut the rate of uninsured in our state, 
particularly among children, in half, under this Administration 
the President said when he was running for office--then 
candidate--``There will be no cuts to Medicaid'' in 2015. And, 
lo and behold, he sent us a budget proposal last year that 
would have cut Medicaid spending by $1.5 trillion over 10 
years. Nevada would have been one of the most hard-hit states 
as a result of that proposal, and I am glad that this Congress 
rejected his budget blueprint and passed an alternative.
    Since I am already familiar with how state and local 
governments are impacted by federal investments, and I believe 
that all of us should be arguing for more resources into our 
states, not less--I don't quite get my colleagues who want to 
get less money to their constituents for schools and health 
care and small businesses. I want to get my state's share of 
the money that we send through taxpayer resources.
    So, Dr. Gordon, can you explain to me how prepared are 
state and local governments for a possible recession in the 
future? How can the federal government help states and 
localities prepare?
    And all things go up. Our economy is good. I am rooting for 
a good economy. I want successful small businesses and job 
growth. But we also know the trajectory, and we have to be 
prepared for when the economy is not as strong. And there are 
levers that the federal government can deploy. So can you speak 
to those, please? Thank you.
    Dr. Gordon. Yes. I just want to say, of course, you know, 
recession does not appear to be imminent. However, states are 
very well prepared. Their rainy day balances are at an all-time 
high of 8 percent of general funds. As you know, credit rating 
agencies do various stress tests of state revenues and spending 
programs. And most states tend to pass those tests quite well.
    The issue is that states had healthy rainy-day funds prior 
to the last recession, and nothing really could have prepared 
them for a revenue drop on the order of 30 percent, and 
increasing demands for public programs. So it is great that the 
federal government stepped in and did so quickly with the 
Recovery Act. What I am concerned about is that we don't have 
an automatic response ready right now. We have to wait for 
discretionary action. And, in fact, things that are done in the 
heat of the moment might not be the best policy.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Mr. Crenshaw, for five 
minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman, and thank you, 
everyone, for being here.
    You know, there is no debate over whether or not there 
should be federal support to the states. It might be framed 
that way sometimes, but that is not the debate. The debate is 
over how efficient it is and how sustainable it is, and what 
makes sense at the state level, and what makes sense at the 
federal level. And that--there should always be a debate about 
that.
    You know, there was a question proposed of why wouldn't we 
always ask for more money for our constituents. Well, the 
reason is because we want to be good stewards of all taxpayer 
dollars, and we want a system that is actually sustainable. 
Sustainability is certainly a goal. Of course I ask for money 
for my constituents. But I also know that my constituents voted 
to pass a $2.5 billion flood bond paid for by their own tax 
dollars.
    If I am going to ask for flood mitigation funding from the 
federal government--and you bet that I have--then I know that 
we also need to match it. And there has to be a good 
relationship between the state and the federal government. 
There has to be a balance.
    The notion of flexibility has come up quite often, and that 
seems to be some bipartisan agreement there. So I want to ask 
for some examples from everyone on what kind of federal--give 
me some examples on federal mandates that have either cost your 
state more, prevented innovation, or reduced efficiency.
    And we will start with the ma'am from Ohio. Thank you.
    Ms. Murnieks. Sure, thank you. I will go back to--my last 
job prior to this was as the chief operating officer for the 
Ohio attorney general's office when Governor DeWine was 
attorney general. And an example that frustrated me in that 
role was that we were continuing to receive federal grants for 
marijuana eradication, when we were having Ohioans killed by 
the opioid crisis. And we didn't have the flexibility to re-
direct those funds.
    Mr. Crenshaw. Wow.
    Ms. Murnieks. So I think that is a great example.
    There was a question earlier about if we have flexibility, 
how can we have accountability. I think the best accountability 
is to focus on results. And in Ohio we are achieving results. 
We created 10,000 new private-sector jobs this year. Small 
businesses are growing. The majority of the folks working with 
our small businesses right now are actually women creating 
small businesses for the first time ever in Ohio. We are seeing 
more venture capital investments. Innovation is up. And we 
created a new opportunity zone tax credit in Ohio that mirrors 
the federal opportunities, so that we can drive more funding--
--
    Mr. Crenshaw. In addition.
    Ms. Murnieks [continuing]. into those areas. So those are 
some of things----
    Mr. Crenshaw. Since we are on Ohio, we have problems in 
Texas with disaster relief funding being mired in a lot of red 
tape. Do you have the same issues in Ohio?
    Ms. Murnieks. We absolutely do, Congressman. One of the 
things that I have on my white board in my office as issues to 
address is the complexity of disaster recovery funds. The--we 
had some tornadoes in Ohio coming through the Dayton area 
earlier this year----
    Mr. Crenshaw. Has there been any official proposals by 
Ohio? In Texas we had a long land commissioner's report on 
that.
    Ms. Murnieks. We don't have any official proposals yet, but 
it is a----
    Mr. Crenshaw. Send them our way, if you----
    Ms. Murnieks [continuing]. an issue----
    Mr. Crenshaw [continuing]. if you develop one.
    Ms. Murnieks. Absolutely, we will, thank you.
    Mr. Crenshaw. And will the rest of the panel please answer 
the question? Thank you.
    Mr. Walther. For--I don't have a lot of experience in this 
area. The most recent one is the--are the floods that occurred 
in----
    Mr. Crenshaw. It doesn't have to be disaster relief-
related. We are still on these general examples.
    Mr. Walther. Generally speaking, when you are working with 
the Corps of Engineers and FEMA, they already have these rules 
and regulations that are in law that make it difficult to 
secure dollars and assistance. Now, we are working through 
that.
    I will--on the other hand, when we were going through 
these--this difficult time this year, they were there, giving 
us advice and assistance in that way, looking at the levees, 
looking at the compromising of the levees. So they played a 
great part. But from a financial side, it is a long-term 
process to get money for levees when it comes to the federal 
government. Thank you.
    Mr. Poloncarz. Congressman Crenshaw, I think the original 
question was with regards to the federal mandate's cost. Well, 
it is not so much it is costing more, it sometimes is the 
complexity associated with it and the timeline delays. We do 
the best that we can to implement policies, but we are often 
dealing with knowing that we are not going to get funds for 
three, four years out, even though they sometimes are needed 
immediately.
    So it--I don't know if it is so much driving increased 
costs, at least at the local level in my county and upstate New 
York counties, but it is knowing that we could always--the 
programs are such that we are depending on the funding, and 
often the funding for the projects that we need them for, 
whether Community Development Block Grants, water, clean water 
programs, or so forth, aren't going to come for years.
    Mr. Crenshaw. Thank you. I am out of time. I yield back.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired. I now recognize the gentleman from Massachusetts, the 
Vice Chair of the Committee, Mr. Moulton.
    Sorry about that. Off my game here. I recognize the 
gentleman from California, Mr. Panetta.
    Mr. Panetta. No, no, no, always on your game, especially 
being from Kentucky. Thank you, Mr. Chair, I appreciate that.
    And, ladies and gentlemen, thank you for this opportunity 
for us to talk to you, and for your participation, as well as 
your preparation in being here.
    My name is Jimmy Panetta, I come from the central coast of 
California. And as you have probably heard, and as you know, 
California pays more in federal taxes than they receive in 
federal spending. Actually, 30.7 percent of our state's budget 
comes from federal funds.
    Now, obviously, California, being as large as it is, 
population-wise, geography, as well as the economy, I think 
that is understandable. However, we do rely quite a bit on 
federal funding for the basics, be it transportation, be it 
environmental infrastructure, be it health care, be it 
education, and, of course, emergency services and disaster 
response.
    Yet, despite the importance of supporting state and local 
governments, I think what we are seeing is that this 
administration has pursued policies that have sort of left them 
out to dry with the 2017 tax bill, with the proposal of 
numerous budgets that cut this type of funding, as well as the 
investments.
    Looking at the 2017 tax law's cap on state and local tax 
deduction, it does create challenges for state revenue agencies 
facing pressure to provide relief for taxpayers. And the 
President's budget would have devastated state investments.
    Now, I am proud that the House at least addressed and 
passed legislation to repeal the SALT cap, and I am also very 
proud that we continue to pass appropriations that do reflect 
our priorities, all of our priorities, Democrats and 
Republicans. But I do believe that there is more that we can 
do.
    We should provide, as you have heard over and over, we 
should provide more certainty to our state governments by 
passing our appropriations bills on time. And we in this 
Committee should be passing our own fiscally responsible budget 
resolutions, instead of simply reacting to this 
Administration's proposals for austerity. In this way I do 
believe that we can ensure both our federal and state tax 
dollars are being spent efficiently and responsibly.
    Now, as a member of the Ways and Means Committee, as well 
as the Budget Committee, we examined the impacts of the 2017 
tax law, and we specifically examined that--what I mentioned, 
that cap on the state and local tax deduction. We heard from a 
number of witnesses from municipalities and emergency service 
providers about the harm that that tax does, concern that it 
could harm investment at the local level.
    Now, Dr. Gordon--and I apologize if you have answered this 
before, I was out at another hearing--but why would this be the 
case, in regards to the potential damages that it could 
provide?
    Dr. Gordon. So the state and local tax deduction, like any 
deduction that is tied to marginal tax rates, was one of those 
deductions that was upside down, that benefited people more at 
the high end of the income distribution who faced higher tax 
rates. The cap addressed that inequity, however at a cost, 
which is basically providing less of a subsidy to states to 
provide services to low-income people who live in the same 
state as those high-income people. So I think we have to 
remember that state and local governments spend about two-
thirds of their budgets on health care and education, goods 
that the federal government and federal taxpayers feel are 
important.
    There is also a concern that limiting the SALT deduction 
basically makes it even harder for people who live in high-cost 
areas like the Silicon Valley or like New York City, that are 
very productive and have higher salaries and higher wages, that 
are nominally higher but don't buy as much, in terms of actual 
rent and things that you need to survive. The federal tax code 
doesn't really take that into account, as you know.
    So the SALT deduction was one way of equalizing those 
differences.
    Mr. Panetta. Got it, thank you. And now, moving on to 
another issue that is important to me: biennial budgeting. And 
I know there was a question asked from my colleagues on the 
other side of the aisle.
    But just again, Dr. Murnieks, what benefits have you 
experienced from biennial budgeting in Ohio, and what 
challenges, as well, have you experienced?
    Ms. Murnieks. Congressman, biennial budgeting in Ohio is a 
long-standing tradition, and it is required in our state. We 
find that that enables us to plan ahead. We forecast our 
revenues well in advance, we plan our programs well in advance. 
It provides opportunity and certainty around when we are having 
the discussions about the budget, so that it is all on a 
schedule, and we can--you know, we can keep to that.
    It is, I think, most important for our local partners that 
they know when programs are put in place, that they will be 
there for the duration of that biennial budget time.
    Mr. Panetta. Great. I am out of time. Thank you, I yield 
back, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Oklahoma, Mr. Hern, for five 
minutes.
    Mr. Hern. Thank you, Mr. Chairman. I always love it when we 
talk about the Tax Cut and Jobs Act, because it is a bit of 
schizophrenia we have, because we talk about how it benefits 
the rich and poor, and--or the rich over the poor. And then, 
when we talk about SALT, we talk about it only helps the higher 
wage earners, which, by classification, would be the richer.
    And so it is always amazing when I hear this, and I always 
hear the complaints from, really, two states, New York and 
California, that have taxed their local citizens into oblivion 
through state taxes, and then are critical of the federal 
government wanting to not have the rest of the country pay for 
those differences.
    But all that aside, we will also have this year the highest 
income revenue to the federal government in the history of the 
country, even by putting back $1.9 trillion of taxpayer dollars 
back into each individual's hands across America over the next 
decade. And it is always amazing to me, when we hear about 
putting money back in the pockets of people, the individuals in 
each of your states and all the other states not represented 
here today, that that is a bad thing.
    It has always been a bad thing. I just got into Congress 
about 14 months ago. It has always been a bad thing when 
somehow we have reduced revenue flows to the federal 
government. It has always been amazing to me, it is amazing to 
people who are not in Washington, DC. The only people who are 
really critical of that are the people in Washington, DC.
    But here we are today and, you know, thanks to the 
President and his getting after the regulations and cutting, 
you know, somewhere around 10 to 15 regulations for every one 
that is introduced, the growth is going on.
    I always hear my colleagues talk and, you know, they are 
great friends, but they always talk about ``it could,'' ``it 
may,'' ``it possibly could.'' All these things that were talked 
about by really smart economists never came to fruition.
    And it is really this ideology that we are going to take 
all this money back to the states. And each of you are 
accountable to revenues, either in a county or a city or a 
state. I assure you your people that get these moneys back 
don't go bury them in the backyard, which is the only way they 
would take them out of the revenue streams in your communities. 
Because they do buy things in your communities, they do support 
your schools, they do support your roads. And they support it 
directly without coming to Washington, DC. and cutting off a 
layer of administrative fees, which is what happens to much up 
here.
    The--we have seen the growth in jobs, the greatest growth 
rate, lowest unemployment, the best employment of every group 
of citizens of the United states that--like we have never seen 
in none of our lifetimes. And I spent 30 years of my life in 
Arkansas, grew up there in Russellville. You know, I am really 
appreciative of what is going on over there. Obviously, I live 
in Oklahoma. And, you know, now we are envying a lot of the 
things you all are doing, which--I think that is awesome.
    You know, the President has talked about transportation and 
infrastructure. He has met with the leaders. You know, still, 
we are trying to figure out how to fund this. I believe it is a 
constitutional duty that we have to fund our infrastructure. 
Most great civilizations have collapsed because they couldn't 
maintain their infrastructure. And we have got a lot of work to 
do there.
    But, like I said to some really smart economists that had 
really fancy degrees behind their names not too long ago, and 
also to Fed Chairman Powell, we have got to get a lot more 
Americans to work, producing a lot more revenue to the states, 
and that is what this President pleaded (sic) to do, and his 
campaign has done that. Promises made, promises kept. The facts 
show it out. Regardless of how much you dislike him or hate 
him, that is not an impeachable offense. But yet we are trying 
to run him away because we don't like all this growth. So--for 
some reason.
    But I do have a question. And you know, as we look at this, 
we continue to do this--inequities to the American people of 
continuing resolution, omnibuses--something that most people 
never understand in their life. As a business guy for 35 years 
prior to getting up here, I thought this couldn't possibly be 
this hard. You heard every person here today, I am sure, talk 
about how budgets were easy to pass, but the leadership would 
never get those into law since 1996, even though it is required 
by law. We just changed the rules.
    So can you just tell me--and I will start with my friend 
from Arkansas--can you tell me what continuing resolutions do 
for you, as a state director of finance?
    Mr. Walther. Well, like Ohio, we budget on a two-year 
basis, two-year cycle. And so there is uncertainty that is 
added into each year, especially that second year, whenever you 
are doing the budget. So that is the main thing, the 
uncertainty. And, you know, it is helpful to know what--how 
much money you are going to get on the next year.
    Mr. Hern. So, to be completely bipartisan or nonpartisan, 
my colleague from--or my friend from New York there, if you 
could, talk about what CRs do to you.
    Mr. Poloncarz. Well, they are no fun to deal with, because 
we then put in contingency plans with regards to programs that 
we know are federally funded that----
    Mr. Hern. So can I just halt you there? I only got 20 
seconds left, and I just want to--for the record, I have got a 
person from New York and a person from Arkansas agreeing.
    And we talked about how bad it is, and it should really be 
frustrating to you all sitting at that table, and everybody 
that is going to watch this video across C-SPAN and elsewhere, 
that everybody in America--most people in America that are 
decisionmakers hate CRs. Members of Congress hate CRs. Yet we 
do them every single year, because that is the only way the 
leadership can get together to make things work. We have to 
stop this ridiculousness. We got to do it in regular order, get 
a budget passed, be responsible legislators for the American 
people.
    I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the--now the gentleman from Massachusetts, the Vice 
Chair of the Committee, Mr. Moulton.
    Mr. Moulton. Mr. Hern, I think we all want growth, we just 
don't want Russia running the country.
    Mr. Chairman----
    Mr. Hern. Was that a statement? They are not running the 
country.
    Mr. Moulton. Fiscal year 2020, Democrats fought to protect 
Medicaid appropriations after President Trump suggested 
reducing Medicaid funding by $1.5 trillion over 10 years. At 
the same time, the 2017 Republican tax law, which benefits 
wealthier Americans and corporations, added $1.9 trillion over 
10 years to the debt. The effect might be even greater after 
accounting for federal tax revenue being lost over CBO's 
projections, as we experienced in 2019.
    Now, every member here on both sides of the aisle 
represents communities that count on federal dollars. There is 
bipartisan dependence on federal funds. In fact, my colleague, 
Mr. Roy, recently commented that states and communities should 
solve their own problems, and not count on the federal 
government, which is ironic, because he took home more federal 
funds in Fiscal Year 2019 for his district than every other 
Republican on this Committee by a factor of two.
    But let's be clear: We all benefit from federal dollars. 
But one party is responsible for sinking us into a fiscal black 
hole by passing a tax cut for the wealthy and corporations that 
is completely unpaid for. The result? We experienced the 
largest deficit in American history last year.
    In fact, Republicans controlled the House, the Senate, and 
White House during appropriations for fiscal years 2018 and 
2019. And the deficit rose each year. According to the U.S. 
Treasury, the deficit increased in Fiscal Year 2019 to $984 
billion, which is a 26 percent increase from the previous year, 
and a 48 percent increase since Fiscal Year 2017, which is the 
last year of appropriations under the Obama Administration.
    Now, the debt that comes from these repeated deficits is a 
massive bill that our kids and our grandkids will have to pay. 
It is like passing your family house down to your kids when the 
home is on fire, and taking out multiple mortgages so there is 
no value left in it, and with no insurance policy to pay for 
the loss. It is inter-generational theft.
    And here is the problem for today's hearing: Nobody on this 
Committee, including my Republican friends, and even the fiscal 
hawks like Mr. Roy among us, has volunteered to give up federal 
funds for his or her district. But we are running out of money. 
The math doesn't add up.
    Dr. Gordon, what fiscal challenges might state and local 
governments face if we cut federal government investments in 
states and local communities because of this massive Republican 
deficit?
    Dr. Gordon. It is interesting that you started with the 
federal budget's own challenges, because I would say, in the 
long term, those are the same challenges facing states and 
localities: aging of the population; uncertain and, most 
likely, rising health care costs.
    The GAO recently calculated that states will face a gap 
between revenues and expenditures on the order of 6 percent in 
2068, so that is quite a ways out, but I think illustrates the 
fact that all of these governments are in the same boat 
together. And so I think the important question is figuring out 
which level of government is best situated to bear which kinds 
of risk, which levels of government should provide which kinds 
of services, and getting that sorted out before these sort of 
external threats come to play.
    Mr. Moulton. Mr. Poloncarz, the low-income heat--low-income 
energy assistance program became law under President Reagan, 
who was no friend of taxes, to protect millions of low-income 
households each year from extreme heat and cold when high 
energy bills exceed their ability to pay for them. In President 
Trump's last budget proposal he eliminated this program.
    Now, I understand that, much like my district, your 
country--your county gets rather cold in the winter. And 
residents rely on this program to keep their homes warm. What 
measures would you need to take if federal investment for this 
program disappeared?
    Mr. Poloncarz. Well, we would immediately have to find a 
way to invest a few million dollars that we did not originally 
budget for. Remember, my budget is on a calendar year, January 
to December. So if it actually changed in the middle of the 
year, and I am looking at the fall and the winter coming up, I 
would have to find millions of dollars that I would be able to 
put into it.
    Because, as you note, even with climate change, where it 
has been a little warmer in our community on and off this 
winter, it is supposed to get really cold again, down to 10 
degrees. And if you don't have heat, your pipes burst, you die. 
It is a lifeline for tens of thousands, including working 
individuals who rely on HEAP to help pay for their energy 
costs. And without it, it would be devastating.
    Mr. Moulton. And is it going to be easy to find those 
millions of dollars?
    Mr. Poloncarz. No. We would either have to go into our 
reserves, or piggy-bank, which we have slowly developed over 
time, or we would have to raise taxes, which would probably not 
be acceptable in most situations, even if you are talking about 
ensuring that someone has heat. A lot of my legislators that I 
deal with are so averse to the idea of raising taxes that they 
would rather let some people go cold than raise their taxes on 
others.
    Mr. Moulton. Thank you.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlelady from Texas, Ms. Jackson Lee, for five 
minutes.
    Ms. Jackson Lee. Mr. Chairman, Ranking Member, let me thank 
you for this very important hearing. I started my service, 
civic and governmental service, as a municipal court judge, and 
as a member of the Houston City Council. And I always say that 
is where the rubber hits the road. I have great respect for 
state government, federal government, but it is where these 
dollars really have a strong impact.
    So I want to take note of the fact that we had a declining 
debt in 2016, the end of the Obama Administration, at $14.2 
trillion. And we now have, at the end of 2019 and growing, a 
debt of $16.7 trillion. In those numbers, unfortunately, we 
have an administration who seeks to find ways to impact or to 
cover up that debt by cutting, I think, vital services.
    So let me try to be as succinct--and if your answers can be 
succinct, I would appreciate it.
    Dr. Gordon, what is the economic rationale for federal 
grants to states?
    Dr. Gordon. The rationale is to address spillovers, things 
that are benefits or costs that a state might not take into 
account when it is making a determination. And some of those 
spillovers include concerns of equity or fairness, or providing 
the things that we think are important for people for a healthy 
and productive life.
    Ms. Jackson Lee. Do you--I come from the region of 
Hurricane Harvey. I remember having to introduce a bill for 
$174 billion. We are still trying to recover.
    And I also call the federal government the umbrella in a 
rainy day. That may be the fire hose in the fire, it may be the 
relief engine in a tornado. How does that impact what the 
federal government needs--has to do for states and local 
governments?
    Dr. Gordon. Thank you for pointing that out. You know, it 
is often said that all states except one are bound by balanced 
budget requirements. Actually, the truth is a little bit 
murkier than that. And it turns out that even states that don't 
have balanced budget requirements do balance their books each 
year.
    So the fact that the federal government can borrow in 
extreme circumstances--or maybe not so extreme circumstances--
is important, because it is better situated to absorb risks, 
whether from a natural disaster or an economic shock.
    Ms. Jackson Lee. And we have experience with natural 
disasters. As I have said, we are still suffering.
    Commissioner Lambrew, I certainly work with my county 
government. And one of the opportunities or responsibilities of 
county government is, of course, the health construct, the 
health system. This Administration, unfortunately, has been 
using various efforts at undermining Medicare and Social 
Security, but particularly Medicaid, with this whole concept of 
block granting. Tell us what would happen if Medicaid is 
sizeably diminished for the vulnerable people in your county.
    Dr. Lambrew. I mean in the state of Maine we certainly 
would experience problems not just--and I think it is important 
to recognize the proposal in the budget is not just to cap 
Medicaid as a block grant, it is to cut it. And I think that 
those cuts represent significant proportions of people. It 
could be that we couldn't provide the services to older members 
or children, the way we do now. It would mean benefits that 
would have to be scaled back.
    We have been trying to, again, tackle the opioid epidemic 
and provide treatment for mothers with children, to make sure 
that the family stays together while that parent gets substance 
use in order--we have been trying to get at social factors or 
determinants of health. How do we make sure we are providing 
the nutritional support for food security?
    Ms. Jackson Lee. So----
    Dr. Lambrew. Housing support, all of that----
    Ms. Jackson Lee. So block granting and/or cuts in Medicaid 
would be just devastating to local government, and your local 
government, in particular.
    Dr. Lambrew. Yes.
    Ms. Jackson Lee. Let me, County Executive Poloncarz--do I 
have it almost correct, sir?
    Mr. Poloncarz. That is good.
    Ms. Jackson Lee. We will--you can correct it in any way you 
desire.
    But let me indicate that one of the blows of this economy 
now is the major tax cut, which the Administration insisted on 
giving a corporate tax cut that even corporations did not ask 
for. Almost five points down, as I understand it, which has 
been ludicrous, in terms of dollars for the treasury.
    Can you let me know--one of the other aspects that we work 
a lot with county government or state government is 
transportation infrastructure, which--water falls into that. 
The whole issue of climate change and environmental quality, 
even though--and EPA. What do you believe is the importance of 
the federal government collaboration with some of these 
quality-of-life issues? Certainly transportation.
    And when those dollars are cut, how does it impact you?
    Mr. Poloncarz. Well, it has an incredible impact. As I 
noted earlier, Erie County has a road infrastructure that is 
actually greater in length than three states. And as such, if 
we did not receive federal assistance from the federal 
government to actually provide additional money to do these 
road projects, we would just continue to have problems.
    And when you live in an area like Buffalo in upstate New 
York, when you put roads down they don't last 50 years. You 
have got freeze-thaws, freeze-thaws, sometimes multiples in a 
year. And so, if you can get 15 years out of a road, that is a 
good thing.
    And if we were to go out there to try to replace our 2,400 
lane miles of county roads every 10, 15 years, it would be very 
difficult on our own. We would not be able to do it without 
coming up with some other revenue source to pay for it, or 
cutting the other services that exist.
    Ms. Jackson Lee. As I yield back, Mr. Chairman, I just want 
to say these are Americans who are speaking. They are speaking 
for Americans, though they are located across the nation. This 
$16.7 trillion debt that is growing is hurting Americans. This 
tax cut is hurting Americans. And this potential war with Iran 
will hurt Americans. I yield back.
    Chairman Yarmuth. The gentlelady's time has expired. I now 
yield 10 minutes to the Ranking Member, Mr. Womack from 
Arkansas.
    Mr. Womack. I will try not to take all that time, because I 
know we have votes that are scheduled and will be coming up 
here, perhaps even as I speak.
    I want to thank the panel for being here.
    I never miss an opportunity to brag on my home state, and I 
am going to do that today with Secretary Walther. Not lost on 
me is the fact that his chief of staff is in the audience 
today, my friend, Alan McVey.
    Alan, always good to see you. I appreciate the work that 
you do and have done.
    He has been a member of the economic development forces of 
Arkansas for a long, long time, and doing great work up at 
DF&A.
    The current--we have had this discussion that has come up 
in this--in the last couple of hours about the broken budget 
process. I never miss an opportunity to talk about this 
process, because, as the chairman noted a minute ago, we spent 
all of 2018 investing our time in trying to fix this broken 
budget and appropriations process cycle without ultimate 
success.
    But we did create a lot of ideas that are even today being 
explored by the Congress. And I hope they come to fruition at 
some point in time.
    So let's talk about what we do in Arkansas: a two-year 
budget. Larry, it is a balanced budget by constitutional 
provision, and gives you the opportunity to provide certainty, 
while at the same time protect yourself against some unforeseen 
circumstance that might happen in the biennium. Is that 
correct?
    Mr. Walther. Yes, sir, it is. As I mentioned in my 
testimony, we also build in safeguards, where we prioritize the 
spending. And if revenues don't come in as expected, then the 
lowest priority gets taken off the table, and then the next, 
and then the next. And that has happened in the Depression--
excuse me, in the recession of 2008 and 2009. There was 
significant cuts. So that is the way we do it.
    Now, another aspect of our biennial approach is we still 
have a session every year. This year we are going to have a 
session in--it starts in April and it is called the fiscal 
session. The only thing we talk about are the budget and the 
fiscal requirements of the state. And if there is some need to 
make adjustments in our budget at that time, or in increases 
for services that weren't expected, we can make changes at that 
point in time.
    Mr. Womack. If you didn't have a responsibility to balance 
your budget, it would make the need for a biennial session less 
important to you, would it not?
    Mr. Walther. That is correct. As I have heard the testimony 
today, the need or the requirement of having a balanced budget 
and no deficit and no debt leaves me with no choice but to make 
adjustments if something happens.
    If a major change happened in federal money that would 
require the state to supplement more, or to provide more to 
education or Medicaid, most of those are set. About 90 percent 
of my budget is fixed. In other words, I don't have any choice. 
I have got to spend the money.
    And so, we would have to make a really difficult decision 
on those other services that are out there that--you have 
education, you have Medicaid, you have corrections. We all--
sometimes we don't talk about that, but we have got to deal 
with the, you know, that aspect of our budget. And it is not--
it is predictable, but it is not going down, either, as I think 
most states know.
    Mr. Womack. Necessitated by your process, our process, you 
have--it is incumbent on the general assembly, the elected 
leaders that come from all of our cities and our counties, to 
make some tough decisions from time to time. Is that correct?
    Mr. Walther. That is correct. And we have a wide diversity 
in our legislature, both in the House and Senate. So they bring 
urban issues there, they bring rural issues. And so that is 
where they come together in committees to hash out these 
issues.
    I will appear before them, my staff appears before them to 
give them certain information having to do with the cost of the 
decisions they are--they have before them, and that is a major 
portion, or input into the decisionmaking process, is what does 
it cost, and what do you have to do in order to spend that 
money.
    Mr. Womack. Director Murnieks, it works for the state of 
Arkansas, it works for the state of Ohio. Why wouldn't or 
shouldn't it work for the U.S. federal government?
    Ms. Murnieks. Ranking Member Womack, I would say that it 
works, and you should try it.
    [Laughter.]
    Mr. Womack. We will have that conversation among us, I am 
sure, some time in the not-too-distant future.
    I am going to give everybody on the panel an opportunity to 
give us words of wisdom from out in the lands of where the 
rubber meets the road, because that is where you guys come 
from.
    If you had a recommendation, one recommendation that you 
could make to your federal government that would better 
accomplish the objectives that were set out in this hearing 
today to kind of expose that federal-state relationship, bind 
it a little better without just throwing a lot more money at 
it, given the fiscal condition--this is the caveat, OK? We are 
a trillion-dollar deficit this year, $23 trillion in debt. 
Given the fiscal condition of our country, what recommendation 
would you make to this body or to the Congress of the United 
States that would, shall we say, make things better for all 
Americans?
    We will start with you, Dr. Gordon.
    Dr. Gordon. To the extent that there have been 
jurisdictions that are in trouble, I think the federal 
government has looked at expediting the flow of funds that are 
already appropriated or obligated.
    In the cases that I am familiar with, it has been difficult 
to figure out where the bottlenecks are, in terms of local 
jurisdictions actually spending federal funds. That seems 
tremendously important to me as a management tool. If you had 
some kind of indicators of where there were basically uncashed 
checks, as happened in Detroit, for example, then the federal 
government could perhaps be more responsive and provide 
technical assistance or other kinds of help before it becomes a 
bankruptcy, as in the case of Detroit.
    So my very nerdy, wonky prescription is a better fiscal 
data architecture for the federal government. It strikes me as 
crazy that any company--to use that analogy--can tell you what 
its offices in various parts of the country are spending at any 
given point in time. I am not sure the federal government can 
do that on a dime. It can do it, but it requires a lot of 
digging.
    So better data in real time on expenditures from federal 
funds.
    Mr. Womack. Better data architecture. I would agree with 
you there, and there are many examples in the federal 
government where we don't have a really good data architecture. 
At least that data is not being shared and utilized for great 
purposes.
    All right, Dr. Lambrew, yours?
    Dr. Lambrew. Maintaining the partnerships that we have at 
the federal and state level, which is when we think through 
Medicaid and these programs where you have to plan 
significantly far out.
    Not knowing if that relationship is going to be the same is 
probably more of a problem for us than a CR, because at least 
the CR is the same. But worrying about will the rules change, 
will we be able to do supplemental payments to our hospitals, 
will we be able to raise taxes the way we have done that, that 
is in play right now with executive branch rulemaking.
    I think that Congress being more engaged with our executive 
branch to make sure that they are being good partners with 
states would be a valuable thing.
    Mr. Womack. OK. Mr. Poloncarz?
    Mr. Poloncarz. It is almost the old do no harm. I am not 
always necessarily coming here with hat in hand saying, ``Give 
me more, we could do more,'' but if some of the recent budgets 
that have been proposed by the Administration have been passed 
as is, it would be--have a tremendous impact.
    And there is no part in some ways of our county government 
that doesn't get touched by the federal government, from 
Medicaid, TANF, to even the Army Corps of Engineers helping us 
design a fish ladder for a dam so that we don't have invasive 
species going up a creek.
    So I would just say do no harm, and understand that we are 
here to help and work with you as much as possible.
    Mr. Womack. Secretary Walther?
    Mr. Walther. I have a--I am going to come at it from a 
little different approach. It would seem to--well, and I have 
had two--well, my last two assignments in Washington, DC. 
were--I was the director of U.S. Trade and Development Agency, 
and I was also on the board of EXIM Bank. And both of those 
agencies are designed to promote exports from the United States 
to foreign countries.
    And at the EXIM Bank it is a bipartisan board, and I was a 
minority board member. But we worked outstandingly together, 
because we were going in the same direction. Our objective was 
to make the companies in the United States better prepared for 
exporting, and to finance those exports. It is bipartisan.
    What would help, from Arkansas, what people sometimes call 
flyover country, would be if our legislature, the Congress and 
the Administration, were on the same page as it relates to 
these sorts of issues. And set the policy, and then move 
forward. But you have to do it together, and that is a tough 
hill to climb.
    Mr. Womack. Director Murnieks?
    Ms. Murnieks. Yes, I would concur with the comments about a 
better data infrastructure. And actually, in Ohio we are 
implementing a new project called Innovate Ohio that is focused 
on just that.
    I would say, looking at the long term, instead of focusing 
on short-term accomplishments, look at the long-term vision, 
and focus on long-term results. Governor DeWine likes to say, 
``The seeds we plant today we may not see the trees that they 
produce during our lifetime,'' but we know that those 
investments matter. And so we are focused on children and we 
are focused on how we can improve their lives.
    In--I would say more flexibility in how we go about 
achieving those results; reducing regulations, following some 
of the examples like what we have implemented in Ohio with 
reducing the number of regulations each time we adopt new; and 
also looking at the business and economic impacts on all of our 
new regulations.
    Mr. Womack. My compliments to the panel. Thank you very 
much for joining us today, and we could utilize a lot of this 
wisdom and put it to work for the betterment of the American 
people. I thank you.
    Chairman Yarmuth. I thank the Ranking Member. I now yield 
myself 10 minutes for questioning.
    And I think it is really astounding that there was no one 
anywhere in this room today that denied that federal funds at 
the state and local level are really critical. And that is a 
starting point, I think. What we do have some question about is 
the issues of flexibility and strings.
    And I was a young staffer up here--very, very young--many 
years ago, during the Nixon Administration. And the first job I 
had, the first assignment I had, I was working for a Republican 
Senator from Kentucky. And my first real assignment was to 
write a speech supporting a program called revenue sharing, 
which the Nixon Administration was putting forth.
    And under revenue sharing, they took a huge chunk of money 
and just gave it to states and cities and towns. And no strings 
attached. The only string, as I recall--and my history may be a 
little shaky--was that the public had to be engaged in the 
decision as to how to spend the money. But there really wasn't 
any accountability after that.
    The program went on until 1986. It was canceled under the 
Reagan Administration, largely because the deficits were 
getting higher and higher, and there wasn't enough money to 
continue doing that. They needed the money for--Reagan was 
trying to buildup the military at that point, and a variety of 
other things. The population was getting older.
    But that is kind of the extreme we are looking at. Just 
give the money back, use it for whatever you want. I haven't 
heard that kind of a proposal recently.
    Dr. Gordon, you have addressed this in various ways during 
the course of the hearing. But in a general sense, to the 
extent that we want some degree of flexibility--I will 
stipulate that, although that is dangerous, but I will 
stipulate we want some degree of flexibility and we want some 
degree of accountability--what should be the goals of the 
flexibility and the accountability?
    Dr. Gordon. I think that is the question. And actually, my 
reading of the history on general revenue sharing is, yes, 
there was that great quote from, I think, James Baker that 
there was no more revenue left to share. But also, if you look 
at the funding formula, there were internal contradictions, 
where they included a term that was supposed to represent a 
community's need or--you know, need for federal revenue, and 
also its own revenue-raising effort.
    So basically, you had, you know, many different 
expectations, all wrapped up into this one program, as well as 
the state-versus-local component. And it was just sort of 
unrealistic to expect it to bear all of those expectations.
    So yes, I have tried to say a couple of times that I do 
think there needs to be a balance, in terms of flexibility and 
accountability. You know, states actually experiment with this 
on their own, vis a vis grants to local governments. So there 
might be something to look at there, in terms of specific 
program design.
    Chairman Yarmuth. Thank you. And I want to talk about 
flexibility with regard to Medicaid, specifically, because--
Director Murnieks, you talked about this and all the waivers 
that are out there--and we have had that experience in 
Kentucky, as well, in our last administration. The Governor 
asked for a lot of waivers, wanted to impose work requirements, 
and those types of things.
    And it occurs to me that, while a certain level of 
flexibility may or may not be useful with Medicaid, but you run 
the risk, with a waiver system, of creating--maybe without 
intention, maybe with intention--a reduction in care. You are 
going to be--you know, work requirements, for instance, will 
reduce--and by the Governor's own admission, when he submitted 
the waiver in Kentucky, it was 95,000 people under his own 
estimate that were going to lose care.
    Is that not a risk when you are asking for--at least if you 
are talking about, from our perspective, wanting to provide 
health care for people who need it most, is that not a risk 
that, with waivers, you could end up with, again, either 
malevolently or not, a reduction in care?
    Ms. Murnieks. Mr. Chairman, I believe that if--when we are 
talking about flexibility, we are talking about more than 
waivers. We are talking about actual flexibility to implement 
programs on the ground in the best ways that they work for our 
constituents. We think that our states and our local 
jurisdictions are those that are closest to the problems that 
Ohioans in our local communities are facing, and they are at 
the best place to make decisions about the way to assist them 
to achieve their American Dream.
    And I would say that, in Ohio, an example of how we have 
been able to bring different resources together, different 
states and federal funds, can provide an example of that, but 
we have had to do that through achieving a lot of waivers and a 
lot of paperwork, and that if that--if flexibility were the 
rule, instead of the exception, that would make it much easier 
for us to help the citizens of Ohio.
    Chairman Yarmuth. So can you give me an example of 
something you were trying to do that became problematic because 
of the lack of flexibility within Medicaid, for instance?
    Ms. Murnieks. I would say that when we are looking at the 
different--as we are re-defining the Medicaid program in Ohio, 
we are looking at the managed care system and what the--when we 
are re-procuring that, what it can look like.
    And how can we encourage those dollars to provide better 
health outcomes? How can we structure the system so that it is 
focused on the health of Ohioans and wellness?
    And, as we are examining that, it is extremely complicated. 
The regulations are quite onerous, and it is--it takes a great 
amount of time. And I would say that there aren't that many 
people throughout the system that understand, when you push one 
lever, the impact that it has on the rest.
    So again, just being able to help states with fewer 
regulations, so that we can structure our programs in a way 
that, in the case of Medicaid, it is focused on wellness 
instead of just the regulations of the system.
    Chairman Yarmuth. I appreciate that.
    Dr. Lambrew, would you address that?
    Dr. Lambrew. Sure.
    Chairman Yarmuth. You, obviously, are very familiar with 
Medicaid, and----
    Dr. Lambrew. I am.
    Chairman Yarmuth [continuing]. in Maine.
    Dr. Lambrew. I am. And we have been actively exploring all 
the options that we have within our MaineCare Medicaid program 
to do better by the people of Maine.
    We haven't hit that many barriers with, like, one good 
exception. We talked earlier about housing and the 
affordability of housing being a problem. If a person is 
homeless, they can't necessarily take their medications, see 
their doctor. They have transportation problems. There are 
things outside the boundaries of the health care system that 
affect health. I think Medicaid rules have limited the ability 
for Medicaid funding to go outside those bounds. That is about 
accountability, and I appreciate that.
    But going to your earlier example, I think we sometimes 
confuse flexibility with program integrity. The state 
innovation waivers that are in effect for different parts of 
the law with the Affordable Care Act put guardrails on what 
could be approved for a waiver, and I think they are 
interesting, right?
    Four conditions, not complicated: to do a waiver you have 
to cover as many people with as affordable coverage as 
comprehensive coverage, with no increase to the federal budget, 
right? That is four simple guardrails that, if a state can do 
it better, they can. So that is the sort of guardrails I think 
we all should think about when we talk about flexibility.
    Can states do it better? In many cases, yes. But so long as 
they maintain that program integrity, what is the program meant 
to do, I think that is a way for federal government to guide 
states.
    Chairman Yarmuth. Well, I think that--you know, I think it 
was Mr. Norman was talking about you don't want to waste money, 
you don't want to--and you don't want to impose requirements 
that are not going to serve any purpose. And I think one of the 
problems we have up here is we rarely do oversight to see what 
regulations, after they have been in place for a while, make 
sense, and which don't make sense any more, which are providing 
a public benefit, and which aren't. But that is another thing 
we need to talk about. The Ranking Member and I will figure 
that out next week.
    But I am going to surrender the rest of my time, and thank 
the witnesses very much for your time and wisdom, and your 
appearance. And if there is no other business before the 
Committee, the hearing is adjourned.
    [Whereupon, at 12:52 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
</pre></body></html>
